la
APPENDIX A
NOTE- This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit

IN RE: HUPING HU, MAOXIN WU,
Appellants

2019-2104, 2019-2105, 2019-2106, 2019-2107

Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. 11/670,996, 11/944,631, 13/449,739, 13/492,830.

Decided: March 17, 2021
HUPING HU, MAOXIN WU, Stony Brook, NY, pro
se.
MICHAEL S. FORMAN, Office of the Solicitor,
United States Patent and Trademark Office,
Alexandria, VA, for appellee Andrew Hirshfeld. Also
represented by THOMAS W. KRAUSE, FARHEENA
YASMEEN RASHEED.

2a
Before NEWMAN, LOURIE, and STOLL, Circuit
Judges.
NEWMAN, Circuit Judge.
Huping Hu and Maoxin Wu (collectively, “Hu”
or “applicants”) appeal four decisions of the U.S.
Patent Trial and Appeal Board (“PTAB” or “Board”),1
affirming the final rejections of claims based on
“quantum
as
subject
matter
described
entanglement.” Hu defines quantum entanglement
as the entanglement of “quantum spins of photons,
electrons and nuclei ” U.S. Patent Application No.
11/944,631 (“the ’631 application”), 1 3.
Hu states that “quantum spins of photons,
electrons and nuclei have now been successfully
entangled in various ways for purposes of quantum
computation and communication.” Id. In the four
appeal,
quantum
on
applications
patent
entanglement is said to occur when fundamental
particles such as photons or electrons interact and
become linked; whereby when the particles are
moved apart and separated by distance, the
molecules’ mechanical states (such as their spin,
momentum, and polarization) remain coupled, and if
the state of one entangled particle is changed, its
distant linked particle is instantaneously affected.
1 Ex Parte Hu, No. 2018-007211, 2019 WL 2285560 (P.TAB,
May 16, 2019) (“the ’631 Application); Ex Parte Hu, No. 2018003120, 2019 WL 2255472 (P.T.A.B. May 16, 2019) (“the ’996
Application); Ex Parte Hu and Wu, No. 2018-003401, 2019 WL
2255476 (P.T.A.B. May 16, 2019) (“the ’830 Application); Ex
Parte Hu, No. 2018-003398, 2019 WL 2255475 (P.T.A.B. May
16, 2019) (“the ’739 Application) . The four Board opinions are
substantially identical in analysis.

3a
The U.S. Patent and Trademark Office
(“PTO”) summarizes the concept of quantum
entanglement as the ability “to change the
characteristics of one substance via the manipulation
of a completely physically separate sub-stance.” PTO
Br. at 4. Hu states that the inventors “have
harnessed and developed quantum entanglement
and non-local effects into useful technologies to serve
the mankind in many areas, such as communication,
engineering, health, medicine and recreation.” Hu
Br. at 5.
The four patent applications at issue are directed
to various methods or apparatus for producing or
using
quantum
entanglement.
The patent
applications are as follows:
US. Patent Application No. 11/944,631, tiled
Nov. 25, 2007 (iSthe \631 application”)
The ’631 application is titled “Method and
Apparatus for Producing Non-Local Physical,
Chemical and Biological Effects.” The application
states that it concerns the “method of producing . . .
effects on physical, chemical and/or biological
systems through quantum entanglement mediated
processes, to apparatus for such productions, and to
method of using the non-local effects for beneficial
purposes.” ’631 application at ^ 2. The ’631
application states that* “One benefit of the present
invention is that the physical and/or chemical
properties such as pH values, temperatures and
gravities of two or more quantum-entangled systems
separated by arbitrary distances can be, in one broad
embodiment, manipulated or modified for a desired
purpose.” Id. at f 23.

4a
The ’631 application describes the method
whereby, as a first step, a “certain volume of a liquid,
gel, gas, solid or a composition thereof such as water”
is quantum entangled by being “simply left alone at a
desired temperature for a certain period of time
before use.” Id. at 1 46. This material is then divided
into the target substance in a container at location A,
and an originating substance in another container at
location B. Id. at
47-49. The originating sub­
stance is then manipulated, and the effects are
manifested in the target substance through quantum
entanglement. Id. at | 49. Claim 1 is deemed
representative1. A method of producing a non-local effect in
a target substance through manipulating an
originating substance and detecting said
nonlocal effect which comprises the steps of
selecting a substance which comprises said
tar-get substance and said originating
substance!
generating a plurality of quantum
entanglements within a plurality of quantum
entities in said substance by irradiating said
substance with magnetic pulse, laser light or
microwave, or letting said substance sit for at
least thirty days;
separating said substance into said target
substance and said originating substance;
positioning said target substance at a first
location in a first stable environment and
said originating substance at a second
location in a second stable environment;
cooling, heating or adding a third
substance to said originating substance; and

5a
detecting with a high- precision instrument a
change in weight, temperature and/or pH
value of said target substance)
whereby said non-local effect is produced
through a non-local process mediated by said
quantum entanglements and said non-local
effect is said change in weight, temperature
and/or pH value of said target substance.
J.A. 79. The ’631 specification provides an example
whereby the container with the originating
substance is chilled by placement in liquid nitrogen,
and the pH of the target substance in a container in
another room is altered, due to quantum
entanglement. ’631 Application at H 49.
The examiner rejected all of the ’631 claims on
appeal, viz. claims 1, 7, 9, 10, 16, 18, 19, 25, 27, and
70-81, on grounds of 35 U.S.C. § 101 as inoperative,
and 35 U.S.C. § 112 as not enabled. The examiner
stated to the Board:
Appellant’s disclosure and claimed invention
that the weight, temperature and/or chemical
properties (pH value) of an isolated target
sub-stance (e.g. water) can be changed by
manipulating
a
separate “originating
substance” (e.g. water) that is physically
separated and isolated from the “tar-get
substance” is not credible and consequently
fails the “useful invention” (utility)
requirement of 35 U.S.C. 101 . . . Appellant’s
experiments and experimental data at
paragraphs 83—99 of the writ-ten description
fails to adequately disclose and describe the
claimed subject matter in such a way as to

6a
enable one of ordinary skill in the art to
practice the invention as claimed without
undue experimentation. Moreover, the
invention as claimed and described is
incapable of functioning as claimed as set
forth above; accordingly, the application fails
to meet the enablement requirement.
’631 Application, Examiner’s Answer at 2, 5. The
Board affirmed, and Hu appeals, stating that the
Board erred in law and fact.
US. Patent Application No. 13/449\ 739, tiled
April 18, 2012 ("the *739 application”)
The ’739 application is titled “Method and
Apparatus for Producing Quantum Entanglement
and Non-Local Effects of Substances,” and is
particularly directed to anesthetic and other
medication effects. The specification describes the
benefits of the claimed method:
One benefit of the present invention is that a
sub-stance such as a medication can be
repeatedly used to obtain a beneficial effect
on a biological system without the said
biological system physically consuming the
said substance. A second benefit of the
present invention is that the beneficial effect
of a substance such as a medication can be, in
one broad embodiment, delivered to a
biological system such as a patient from a
remote location of arbitrary distance. A third
benefit of the present invention is that two
parts of a quantum -entangled medium with
one part being physically at one location and

7a
a second part being physically at another
location of arbitrary distance can be, in one
broad embodiment, used to transmit an
encoded message.
’739 application at H 24. The ’739 application
presents the example of administration of a general
anesthetic by “applying magnetic pulses to a
biological system such as the human brain when a
substance such as a general anesthetic was placed in
between caused the brain to feel the effect of said
anesthetic for several hours after the treatment as if
the test subject had actually inhaled the same.” Id. at
K 9. Figure 1A is presented as illustrative of
administration of an anesthetic-

Fig 1A
The anesthetic is placed in a container outside the
patient’s head, and the container is attached to a
magnetic coil connected to an audio system such as a
radio. ’739 application at 1H| 42-43. The Board
described the method as “directing music toward that
brain through a container of that anesthetic.” ’739
Application, Board Op. at *3. Claim 1 is deemed
representative-

8a
1. An apparatus for producing a plurality of
quantum entanglements between a first
plurality of quantum entities in a chemical
substance and a second plurality of quantum
entities in a human or animal, a non-local
chemical effect of said human or animal on
said chemical substance through said
plurality of quantum entanglements and/or a
non-local biological effect of said chemical
substance on said human or animal through
said plurality of quantum entanglements
which comprises*
a quantum -entanglement generating
source which emits a plurality of quantumentangling photons or magnetic pulses when
said source operates;
a first container for holding said chemical
substance disposed next to said source; and
said chemical substance in said container;
such that when said first container is filled
with said chemical substance is disposed next
to said human or animal, and said source
operates, said photons or magnetic pulses
interact with said first plurality of quantum
entities in said chemical substance and said
second plurality of quantum entities in said
human or animal generating said plurality of
quantum entanglements, said non-local
chemical effect through said plurality of
quantum entanglements which comprises an
effect of said human or animal on a chemical
property or process of said chemical
substance and/or said biological non-local
effect through said plurality of quantum
entanglements which comprises an effect of

9a
said chemical substance on a biological
property or process of said human or animal.
J.A. 1990.
The Board affirmed the rejection of all of the
claims of the ’739 application, i.e., claims 1-3, 6-8,
12, and 13 under 35 U.S.C. § 112 on grounds of
written description, indefiniteness, and lack of
enablement. Reviewing the application, the Board
stated[D]ue to the absence of any known scientific
principles explaining how Appellant’s
invention could possibly operate in this
manner, the absence of any cogent
explanation in Appellant’s Specification
regarding the general principals or
mechanisms causing this to occur, and the
absence of any verifiable test data reasonably
attributable to the purported result, the
characterized
reasonably
Examiner
Appellant’s Specification as failing to satisfy
the enablement requirement. . . . We find no
explanation as to why ordinary and
conventional audio produces any meaningful
quantum entanglements and, even if it did,
why they would have any meaningful effects
on the pharmacological interaction between
an anesthetic agent and the brain. .. . We are
also not apprised of any data logically
evincing such a pharmacological interaction
has actually occurred.
’739 Application, Board Op. at *3 (footnote omitted).
The Board also affirmed the rejection under §
101, stating-

10a
The Examiner concludes claim 1 is directed
to a natural phenomenon of generating
quantum entanglements which, along with
their interactions with a subject, are natural
results of magnetic pulses or photons, and
therefore falls within a judicial exception to
subject matter eligible for patenting. . . . The
Examiner considers the source and container
limitations and determines they lack the
particularity necessary for a machine,
transformation, or useful application to bring
the claim within the ambit of subject matter
that is a patent-eligible practical application.
. . . The Examiner’s analysis, summarized
above, is consistent with PTO guidance and
uncontroverted.
essentially
stands
Accordingly, we adopt the Examiner'sposition and sustain the § 101 rejection on
the basis set forth by the Examiner.
Id. at *7, *9 (footnote omitted).
US. Patent Application No. 13/492,830, Sled
June 9, 2012) (tsthe ■830 application”)
The ’830 application is titled “Method and
Apparatus for Producing and Detecting Non-Local
Effects of Sub-stances,” and, like the other
applications, recites the “method for communicating
between two remote locations through two parts of a
quantum-entangled medium with one part being
applied to a responsive target such as a particular
biological, chemical or other system at one location
and a second part being subsequently entangled with
a particular substance representing a particular
message through quantum -entangling members

11a
such as photons at a remote location of arbitrary
distance.” ’830 application at K 25. The *830
application describes non-local effects of medications,
and presents the example where the physiological
effects of the drug Primatene, a medication that
includes a heart stimulant, are experienced by a
remotely located person who did not consume the
drug, based on microwave activated quantum
entanglement. The specification provides the
example where a solution of Primatene, containing
the heart stimulant ephedrine, is exposed to
microwave radiation in one room, and effects are felt
by a per-son in a room about 50 feet away “in the
form of rapidly increased heart rate for at least four
(4) minutes in the range of 1-6 points (beats) or 1.5% *
10% above the fluctuating ranges of the baselines.”
Id. at UK 102-103, 120. Claim 5 is deemed
representative*
5. A method of producing and detecting a
second plurality of quantum entanglements
between a third plurality of quantum entities
in a first tar-get and a fourth plurality of
quantum entities in a second target, a first
non-local effect of said second target on said
first target through said second plurality of
quantum entanglements and/or a second
nonlocal effect of said first target on said
second target through said second plurality
of quantum entanglements which comprises
the stepsselecting said first target which comprises
a first chemical substance, human or animal
at a first location;

12a
selecting said second target which
comprises a second chemical substance,
human or animal at a second location;
providing a first water-based medium at
said first location and a second water-based
medium at said second location, a first
plurality of quantum entities in said first
medium being in a first plurality of quantum
entanglements with a second plurality of
quantum entities in said second medium;
providing a detecting means for detecting
said
second
plurality
of
quantum
entanglements, said first non-local effect
and/or said second non-local effect when said
detecting means operates;
causing said first target to interact with
said first water-based medium through a first
contact or radiation from a first photon or
magnetic pulse generating source;
causing said second target to interact with
said second water-based medium through a
second con-tact or radiation from a second
photon or magnetic pulse generating source;
and detecting said second plurality of
quantum entanglements, said first non-local
effect and/or said second non-local effect;
whereby said second plurality of quantum
entanglements between said third plurality
of quantum entities in said first target and
said fourth plurality of quantum entities in
said second target is generated through said
interaction between said third plurality of
quantum entities in said first target and said
first plurality of quantum entities in said
first water -based medium and said
interaction between said fourth plurality of

13a
quantum entities in said second target and
said second plurality of quantum entities in
said second water-based medium, and
detected through said detecting means; and
said first non-local effect of said second target
on said first target, comprising a first effect
of said second target on a first physical,
chemical or biological property or process of
said first target, and/or said second non-local
effect of said first target on said second
target, comprising a second effect of said first
target on a second physical, chemical or
biological property or process of said second
target, are generated through said second
plurality of quantum entanglements between
said third plurality of quantum entities in
said first target and said fourth plurality of
quantum entities in said second target and
detected through said detecting means.
J.A. 4391-93.
The PTAB held claims 5, 7—9, 11, and 12, all of
the claims on appeal of the ’830 application,
unpatentable un-der. § 101 as inoperative and under
§ 112 as not in compliance with the written
description requirement and not enabled. The Board
statedWe agree with the Examiner’s analysis,
which raised reasonable doubts as to
operability of Appellants’ invention and the
with
the
Specification’s
compliance
. . The
enablement requirement
Specification provides a few examples of
suitable sources and one example of a

14a
detecting method.
However, claim 5
encompasses subject matter wherein any­
thing capable of generating photons or
magnetic pulses for causing quantum
entanglements, whether known or unknown,
described in Appellants’ Specification or not,
can be the source. . . . Even if we were to set
aside the question of operability and assume
that
Appellants
have
demonstrated
possession of a limited number of sources and
at least one detecting technique, the scope of
the right to exclude that would be granted by
claim 5 would far exceed Appellants’
contribution to the art—preempting the
future before it has arrived ....
’830 Application, Board Op. at *4, *8. The Board
adopted the Examiner’s reasoning, and rejected the
claims.
U.S. Patent Application No. 11/670,996.\ Sled
February 4, 2007(%he ’996 application”)
The ’996 application is titled ‘Method and
Apparatus for Producing Quantum Entanglement
and Non- Local Effects of Substances” and describes
remote
effects
and
producing
quantum
entanglements with laser light, reciting the following
experiment[L]aser light from the laser first passed
through the large glassware filled with 200
ml tap water and then through the small
glassware filled with a sub-stance . . . located
about 300 cm away. . . . After 30 min
exposure to the laser light, a test subject

15a
consumed the treated tap water without
being told the details of the experiments and
report the biological and/or chemical effects
felt for the next several hours.
’996 application at t 79. Claim 1 is deemed
representative1. A method of producing a plurality of
quantum entanglements between a first
plurality of quantum entities in a first target
and a second plurality of quantum entities in
a second target, a first non-local effect of said
second target on said first target through
said plurality of quantum entanglements
and/or a second non-local effect of said first
target on said second target through said
plurality of quantum entanglements which
comprises the steps of
selecting said first target,which comprises
a first chemical substance, water-based
medium, human or animal;
selecting said second target which
comprises a second chemical substance,
water-based medium, human or animal;
providing a photon or magnetic pulse
generating source, which emits a plurality of
photons or magnetic pulses as quantum
entanglement generating members when
said source operates;
disposing said first target between said
source and said second target or said second
target be-tween said source and said first
target; and
driving said source to emit said photons or
magnetic pulses which interact with said

16a
first plurality of quantum entities in said
first target and said second plurality of
quantum entities in said second target;
whereby said plurality of quantum
entanglements between said first plurality of
quantum entities in said first target and said
second plurality of quantum entities in said
second target is generated through said
interactions of said photons or magnetic
pulses as said quantum entanglement
generating members with said first plurality
of quantum entities in said first target and
said second plurality of quantum entities in
said second target; and said first non-local
effect of said second target on said first
target, comprising a first non-local effect of
said second target on a first physical,
chemical or biological property or process of
said first target, and/or said second non-local
effect of said first target on said second
target, comprising a second non-local effect of
said first target on a second physical,
chemical or biological property or process of
said second target, are generated through
said plurality of quantum entanglements.
J.A. 5166-67. The Board held claims 1, 3-7, 11, 14,
18, 19, 23, 24, 32-34, 36, 37, 44 and 46 of the ’996
application (all of the claims on appeal) unpatentable
under § 101 as inop-erative and § 112 as not enabled.
The Board held that the described remote effects
attributed to quantum entangle-ment were not
substantiated by adequate evidence to meet the
requirements of patentability. The Board also ex­
pressed skepticism as to the scientific premise of
quantum entanglement.

17a
DISCUSSION
The Board considered each application
separately, and issued separate opinions. The
applications were not all in the same art unit, and
were processed by two examiners. We consolidated
the four appeals for briefing and argument.
Hu argues that the examiners and the Board
erred in examination procedure, for the burden of
establishing un-patentability is on the PTO, and
requires evidence based on prior art, knowledge, and
analytic reasoning. Hu states that this burden is not
met by skepticism and ignorance. Hu points to the
absence of prior art, the absence of contrary
knowledge, and the absence of contrary evidence.
Hu is correct that the burden is on the PTO to
establish that the standards of patentability are not
met. See 35 U.S.C. § 102 (“A person shall be entitled
”). In implementation of the
to a patent un-less
patent statute, on examination the PTO bears the
initial burden of presenting a prima facie case of
unpatentability. If that burden is not met,
patentability is established. If it is met, the burden
shifts to the applicant, to come forward with evidence
and argument to rebut the prima facie case. In re
Piasecki, 745 F.2d 1468, 1472 (Fed. Cir. 1984). In the
back-and-forth of argument and explanation that
characterizes patent examination, the ultimate
burden of showing unpatentability is on the PTO, as
the statute requires. In re Duvi, 185 F.3d 885 (Fed.
Cir. 1999) (“[T]he ultimate burden of establishing
unpatentability is with the PTO.”); see also In re
Oetiker, 977 F.2d 1443, 1449 (Fed. Cir. 1992)
(Plager, J., concurring) (“An applicant for a patent is

18a
entitled to the patent unless the application fails to
meet the requirements established by law. . . . The
burden is on the Com-missioner to establish that the
applicant is not entitled under the law to a patent. . .
. [W]hen obviousness is at is-sue, the examiner has
the burden of persuasion and there-fore the initial
burden of production. Satisfying the burden of
production, and thus initially the burden of
persuasion, constitutes the so-called prima facie
showing. Once that burden is met, the applicant has
the burden of production to demonstrate that the
examiner’s preliminary determination is not correct.
The examiner, and if later involved, the Board,
retain the ultimate burden of persuasion on the
issue. . . . Thus on appeal to this court as in the PTO,
the applicant does not bear the ultimate burden of
persuasion on the issue.”).
In three of the four applications no references
were cited; in the ’739 application the examiner
rejected claims 1, 6, and 12 under § 102(b) as
anticipated by a reference of Kiontke. In all four
applications the examiners and the Board stated
their reasons for doubting the efficacy of the claimed
subject matter. An examiner summarized that the
experimental report of changing the temperature or
pH of one substance by manipulating a physically
separate and distant second substance “violates the
first law of thermo-dynamics,” is “contrary to
traditional understanding of chemistry,” and
“violates the classical laws of physics.” ’631
Application, Examiner’s Answer at 3-4, 9. The
examiner stated that the scientific principle of
conservation of mass was violated by the asserted
change of weight inside a closed container-

19a
Here appellant asserts that the weight of the
isolated target substance in a closed
container changes over time even though no
more water is added or subtracted. With the
force of gravity from earth a constant for a
particular location, appellant’s assertion that
the weight of the target sub-stance changes
while at the same location without the
addition or subtraction of water (or other
matter) violates the established scientific
principle
of
conservation
of
mass.
Accordingly, appellant’s assertions and
claims regarding a change in weight of the
target substance are not credible and the
claimed invention lacks utility.
’631 Application, Examiner’s Answer at 3. The
examiner further stated that the enablement
requirement was not met*
Appellant’s experiments and experimental
data at paragraphs 83-99 of the written
description fails to adequately disclose and
describe the claimed subject matter in such a
way as to enable one of ordinary skill in the
art to practice the invention as claimed
without undue experimentation. Moreover,
the invention as claimed and described is
incapable of functioning as claimed as set
forth above; accordingly, the application fails
to meet the enablement requirement.
Id. at 5. Hu responded that the examiner had no
evidence or other support for these arguments, which
are mere speculation and without foundation, and
thus contrary to the rules of patentability, as well as

20a
not conforming to the requirements of patent
examination and the placement of the burden of
proof.
The Board sustained the rejection, stating that
“the Examiner reasonably characterized Appellant’s
invention as being of an incredible nature.” ’631
Application, Board Op. at *4. Precedent supports
such an examination rejection, in an appropriate
case. See In re Cortright; 165 F.3d 1353, 1357 (Fed.
Cir. 1999) (“The PTO may establish a reason to doubt
an invention’s asserted utility when the written
description ‘suggests] an inherently unbelievable
undertaking or involve [s] implausible scientific
principles.’” (quoting In re Brana, 51 F.3d 1560, 1566
(Fed. Cir. 1995)) (alterations in original)).
The Board stated its skepticism of the claimed
invention’s operability, citing the absence of support
in scientific principle and credible data:
We have no doubt that if Appellant’s
invention
is able to use
quantum
entanglement
to
alter
the
weight,
temperature and/or pH value of a first sub­
stance by modifying only some other second
sub-stance that had previously been exposed
to “magnetic pulses, laser light, or
microwave,” with the first substance it would
be both groundbreaking and revolutionary . .
. However, due to the absence of any known
scientific
principles
explaining
how
Appellant’s invention could possibly operate
in this manner, the absence of any cogent
explanation in Appellant’s Specification
regarding the general principals [sic] or

21a
mechanisms causing this to occur, and the
absence of any verifiable test data reasonably
attributable to the purported result, the
characterized
reasonably
Examiner
Appellant’s invention as being of an
incredible nature.
’631 Application, Board Op. at *4 (emphasis in
original) (footnote omitted). We agree that the Board
reasonably placed weight on the absence of scientific
explanation of the announced effects of magnetic
pulse, laser light, or micro-wave radiation, and “why
spin or any other quantum property of entangled
particles would bring about these types of changes in
a remote, ‘non-local’ portion of a sample or
substance.” Id. The Board concludedThe Examiner provided a detailed analysis,
citing various evidentiary sources, including,
but not limited to, those submitted by
Appellant, in considering the question of
enablement, and the question of whether the
claimed invention contravenes established
scientific principles, as that question relates
to the utility requirement.... We agree with
the Examiner’s analysis, which raised
reasonable doubts as to operability of
Appellant’s invention and the Specification’s
compliance
with
the
enablement
requirement.
Id. at *3.
Hu argues on appeal that no authority
supports the Board’s theory that the claimed
inventions are contrary to scientific principles and

22a
that the Board cited no authority for its conclusion.
Hu provided twenty-five scientific publications by
physicists concerning quantum entanglement, and
five publications authored by Huping Hu and Maoxin
Wu concerning observations such as those set forth
in their patent applications. Hu states that the
examiners and the Board “resort[ed] to speculation,
unfounded assumptions or hindsight reconstruction.”
Hu Br. at 54 (quoting In re Warner, 379 F. 2d 1011,
1017 (C.C.P.A. 1967)). Hu states that physicists
knowledgeable in the science of quantum mechanics
would understand the principles of quantum
entanglement, although the PTO examiners and the
Board did not.
An examiner informed the Board that “the
concept of quantum entanglement per se is not being
disputed.” ’996 Application, Examiner’s Answer at 7.
“[qluantum
examiner
observed
that
An
entanglement has been observed momentarily in
highly controlled experiments involving photons,
electrons and more recently macroscopically in
diamonds . . . conducted under extreme conditions
that last for fractions of a second.” ’631 Application,
Examiner’s Answer at 11, 16. The examiners’
rejections were based on skepticism concerning Hu’s
application of quantum entanglement to produce the
effects Hu described and claimed.
The Board found that the scientific articles
cited by Hu did not provide a scientific basis for Hu’s
reports of physical or chemical or biological behavior
attributed to quantum entanglement. We agree that
this finding comports with the cited scientific
articles.

23a
The Board did not err in requiring Hu to
establish the operability of his asserted discoveries,
in view of the conflict with ordinary experience as
well as with established scientific principles. See
Process Control Corp. v. HydReclaim Corp., 190 F.3d
1350, 1359 (Fed. Cir. 1999) (holding claims
inoperable because they violate the principle of
conservation of mass); Newman v. Quigg, 877 F.2d
1575 (Fed. Cir. 1989) (describing device as an
operating perpetual motion machine violates the first
or second law of thermodynamics); In re Swartz , 50
F. Appx 422, 424-25 (Fed. Cir. 2002) (claims to
process said to implement “cold fusion” rejected as
directed to an “unattainable result”). In Swartz the
Board found that “results in the area of ‘cold fusion’
were irreproducible as of the filing date of this
application, and that those skilled in this art would
‘reasonably doubt’ the asserted utility and operability
of cold fusion.” Id. at 424.
The PTO, as the nation’s guardian of
technologic invention, must be receptive to unusual
concepts, for the core of invention is unobviousness.
However, concepts that strain scientific principles
are properly held to a heightened standard, typically
measured by reproducibility of results. Here the
Board was presented with an apparent departure
from conventional scientific understanding, and the
Board appropriately sustained the examiners’
requirements for experimental verification. The
Board applied a reasonable and objective standard,
and acted reasonably in sustaining the examiners’
requirements. Should further investigation bring

24a
peer recognition and verifiable results, the PTO and
the scientific community would surely be interested.2
We affirm the Board’s holding, as to all four
patent applications, that there is not scientific
support for the claimed methods or apparatus, and
that the experimental data and explanations are
inadequate to support the novel results and scientific
principles asserted by Hu. “When a claim requires a
means for accomplishing an unattainable result, the
claimed invention must be considered inoperative as
claimed and the claim must be held invalid under
either § 101 or § 112 of 35 U.S.C.” Raytheon Co. v.
Roper Corp724 F.2d 951, 956 (Fed. Cir. 1983); see
also In re Milligan,, 101 F.3d 715 (Fed. Cir. 1996)
(“[A]s we conclude as a matter of law that those of
reasonable skill in the art would not find Milligan’s
contentions of utility credible, we must affirm [on the
ground] of the lack of utility . . . .”).
CONCLUSION
The Board’s decisions in the four applications on
appeal are affirmed, rejecting all of the claims on
appeal.
AFFIRMED
COSTS
No costs.

2 There are more things in heaven and earth; Horatio, Than are
dreamt of in your philosophy.
W. Shakespeare, HAMLET, Act 1, Scene 5,11. 166-67.

25a
APPENDIX B
(C.A.J.A. 15-25)

UNITED STATES PATENT AND TRADEMARK
OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD

Ex parte HUPING HU
Appeal 2018-007211
Application 11/944,631
Technology Center 3700

Before: CHARLES N. GREENHUT, JEFFREY
A. STEPHENS, and ALYSSA A. FINAMORE,
Administrative Patent Judges.

GREENHUT, Administrative Patent Judge.

DECISION ON APPEAL1

1 Related appeals are: 2018-003398 in application 13/449,739;
2018*003401 in application 13/492,830; and 2018-003120 in
application 11/670,996.

26a
STATEMENT OF THE CASE
Appellant appeals under 35 U.S.C. § 134(a)
from a rejection of claims 1, 7, 9, 10, 16, 18, 19, 25,
27, and 70-81. We have jurisdiction under 35 U.S.C.
§ 6(b).
We affirm.
CLAIMED SUBJECT MATTER
The claims are directed to a method for
producing non-local physical, chemical, and biological
effects. Claim 1, reproduced below, is illustrative of
the claimed subject matter:
Claim 1. A method of producing a non-local
effect in a target substance through
manipulating an originating substance and
detecting said non-local effect which
comprises the steps of
selecting a substance which comprises
said target substance and said originating
substance;
generating a plurality of quantum
entanglements within a plurality of quantum
entities in said substance by irradiating said
substance with magnetic pulse, laser light or
microwave, or letting said substance sit for at
least thirty days;
separating said substance into said
target substance and said originating
substance;
positioning said target substance at a
first location in a first stable environment
and said originating substance at a second
location in a second stable environment;

27a
cooling, heating or adding a third
substance to said originating substance; and
detecting with a high-precision
instrument a change in weight, temperature
and/or pH value of said target substance;
whereby said non-local effect is
produced through a non-local process
mediated by said quantum entanglements
and said non-local effect is said change in
weight, temperature and/or pH value of said
target substance.
REJECTIONS
Claims 1, 7, 9, 10, 16, 18, 19, 25, 27 and 70-81
are rejected under 35 U.S.C. § 101 because the
disclosed invention is inoperative and therefore lacks
utility, and also under 35 U.S.C. § 112, first
paragraph, as failing to comply with the enablement
requirement.
OPINION
Ancillary matters
Objection of Amendment under 35 U.S.C. §
132(a)
Appellant argues "this objection is appealable
since the Examiner’s new matter objection to the
specification is related to and accompanied by
Examiner’s claim rejection under 35 U.S.C. § 112,
first paragraph." App. Br. 52 (citing MPEP §§
608.04(c), 2163.06). Although the Examiner made a
rejection under§ 112, first paragraph, that rejection
is based on the enablement requirement and is not of

28a
the type necessitated by introducing new matter into
the claims-typically premised on the written
description requirement of§ 112, first paragraph.
See, e.g., In re Lukach, 442 F.2d 967 (CCP A 1971)
(explaining new or amended claims which introduce
elements or limitations which are not supported by
the as-filed disclosure violate the written description
requirement). We recognize that the Examiner did
cite certain shortcomings in Appellant's experimental
results, as originally filed, as part of the Examiner's
original analysis concerning enablement. Final Act.
12. However, for purposes of the enablement analysis
the Examiner has given Appellant the benefit of
considering the amended data despite the
Examiner's objection to that data as new matter. In
other words, the analysis of Appellant's experimental
results in the enablement rejection is independent of
the issue of whether the amended results constitute
new matter. Further, as discussed below, the entry
or non-entry of the amendments would not affect the
outcome of our decision. Thus, we are not apprised as
to how the new matter objection sufficiently relates
to a rejection presently before us so as to bring that
objection within our jurisdiction. Accordingly, we do
not reach the merits of the objection herein.
Alleged New Ground ofRejection
Appellant contends "the Examiner's Answer
introduces New Ground of Rejection by way of
Wands [In re Wands, 858 F.2d 731 (Fed. Cir. 1988)]
factors analysis." Reply Br. 5. First, although the
Examiner introduced express citations to Wands and
the various enumerated factors listed in MPEP §
2164.01(a) fee Ans. 8-9), we are not apprised of any
significant substantive changes in the Examiner's

29a
analysis that prejudiced Appellant. The Examiner
provided a very thorough and detailed analysis in
support of the enablement rejection that touched on
a variety of the Wands factors even if they were not
mentioned specifically by name or provided with a
specific citation. See Final Act. 9-37. Second,
Appellant elected to file a reply brief addressing the
merits of the Examiner’s position and, in doing so,
waived "any arguments that a rejection must be
designated as a new ground of rejection." See 37
C.F.R. § 41.40(a). Appellant's Reply Brief provided
sufficient opportunity to respond to the merits of the
Examiner's rejection. See, e.g., In re Anderson, 662
F. App'x 958 (Fed. Cir. 2016) (nonprecedential).
Accordingly, we do not reach the issue of whether the
Examiner's Answer included an undesignated new
grounds of rejection.
Enablement under § 112, first paragraph, and utility
under § 101
For each of these rejections, Appellant argues
the claims as a group (App. Br. 9-52), for which claim
1 is representative under 37 C.F.R. § 41.37(c)(l)(iv).
With regard to the questions of enablement and
utility, our reviewing court has summarizedThe questions of whether a specification
provides an enabling disclosure under § 112,
T[l, and whether an application satisfies the
utility requirement of § 101 are closely
related.
To
satisfy
the
enablement
requirement of § 112, Kl, a patent application
must adequately disclose the claimed
invention so as to enable a person skilled in
the art to practice the invention at the time

30a
the application was filed without undue
experimentation. The utility requirement of§
101 mandates that the invention be operable
to achieve useful results. Thus, if the claims
in an application fail to meet the utility
requirement because the invention is
inoperative, they also fail to meet the
enablement requirement because a person
skilled in the art cannot practice the
invention. The how to use prong of section
112 incorporates as a matter of law the
requirement of 35 U.S.C. § 101 that the
specification disclose as a matter of fact a
practical utility for the invention. Lack of
utility is a question of fact, and the absence
of enablement is a legal conclusion based on
underlying factual inquires.
In re Swartz, 232 F. 3d 862, 863 (Fed. Cir. 2000)
(quotations and internal citations omitted)! see also
MPEP § 2164.07.
Paragraphs
8
and 9
of Appellant’s
Specification summarize the invention as follows^
[Para 8] The subject invention is therefore
based on my realizations that (l) quantum
means
genume
entanglement
interconnectedness and inseparableness of
once interacting quantum entities and can be
directly sensed and utilized by the entangled
quantum entities! (2) quantum entanglement
can persist in biological, chemical and
physical systems at room and higher
temperatures
despite
of
quantum
decoherence! and (3) quantum entanglement

31a
can influence chemical and biochemical
reactions, other physical processes and
micro- and macroscopic properties of all
forms of matters. Therefore, it can be
harnessed and developed into useful
technologies to serve the mankind in many
areas such as communication, engineering,
health, medicine and recreation.
[Para 9] For example, using the apparatus
and method developed in this invention I
have discovered that the pH value of water in
a detecting reservoir can be non-locally
affected through manipulating water in a
remote reservoir quantum-entangled with
the water in the detecting reservoir.
The Examiner provided a detailed analysis,
citing various evidentiary sources, including, but not
limited to, those submitted by Appellant, in
considering the question of enablement, and the
question of whether the claimed invention
contravenes established scientific principles, as that
question relates to the utility requirement. See
Final Act. 3~37; Ans. 11-39. We agree with the
Examiner’s analysis, which raised reasonable doubts
as to operability of Appellant’s invention and the
Specification's compliance with the enablement
requirement.
In response, Appellant cites, inter alia,
paragraphs 47-49 of the Specification (App. Br. 4344), which, along with Figure 1, are reproduced
below to summarize an embodiment of Appellant's
invention-

32a

I

100
113

i

111

190

121
122

112

\____\
^150

^
130

no
Location A

Location B

FIG.1

[Para 47] Considering first FIG. 1, the
apparatus 100 of the present invention in one
embodiment includes a target 110, a source
120 and said mean 130 for manipulating said
source 120. Said target 110 further includes
the target substance 111, said first container
112 holding said substance 111 and said
internal probe 113 inserted into said
container 112. Said source further including
said originating substance 121 and said
second container 122 holding said substance
121.
[Para 48] In one particular embodiment, the
target substance 111 and originating
substance 121 are quantum-entangled water
prepared according to one of the said
quantum entanglement process, the internal
probe is a traceable-calibration digital
thermometer with a resolution of 0.001 °C
and repeatability of 0.002°C in liquid near
25°C, container 112 is a small flat glassware

33a
of the dimensions about 1 "x4"x6” (thickness,
width, height) with a useful internal volume
of about 250ml, container 122 is a round
plastic ware of the dimensions 2 "x7" (
diameter, height) with a useful internal
volume of about 350ml, and the manipulation
mean 130 is a particular embodiment of
mean 131 shown in FIG. 2 which includes a
25-liter Dewar and 10-25 liters of liquid
nitrogen filling said Dewar. The container
112 has a removable cap so that it can be
filled, emptied, closed and fitted with the said
probe 113. The container 122 also has a
removable cap so that container 122 can be
filled, emptied and closed. It will be
understood, however, that the invention is
not limited only to quantum-entangled water
but also applies to other quantum-entangled
media. It will be further understood that the
internal probe is not limited only to the said
digital thermometer but also applies to other
internal probes such as pH meter and
conductivity meter depending on a particular
purpose.
[Para 49] To use the apparatus having this
particular embodiment for a desired purpose
such as non-local signaling, control of a
device or manipulation of the physical and or
chemical properties of the target substance,
one disposes the said target 110 to a desired
location A with well-controlled environment
and the said source 120 to another desired
location B, operates the manipulation mean
131 by submerging the container 122
containing substance 121 into the 25-litre

34a
Dewar filled with 10-25 liters of liquid
nitrogen for a desired length of time whereby
the target substance 111 are remotely
influenced by the operation of the said
manipulation mean through non-local
process
190
mediated by quantum
entanglement between the target substance
111 and originating substance 121, and
records readings of said probe 113 both
before and during the operation of the said
mean 131 for a desired period of time
depending on a desired purpose.
We have no doubt that if Appellant’s invention is
able to use quantum entanglement to alter the
weight, temperature and/or pH value of a first
substance by modifying only some other second
substance that had previously been exposed to
"magnetic pulses, laser light, or microwave," with the
first substance it would be both groundbreaking and
revolutionary. See Reply Br. 6. However, due to the
absence of any known scientific principles explaining
how Appellant's invention could possibly operate in
this manner, the absence of any cogent explanation
in Appellant's Specification regarding the general
principals or mechanisms causing this to occur,2 and
2 That is not to say that Appellant must, in all cases, explain
the scientific principles governing how a device operates if they
are not known. See In re Anjhauser, 399 F.2d 275,283 (CCPA
1968) (explaining an applicant "is not legally required to
comprehend the scientific principles on which the practical
effectiveness of his invention rests"). However, Appellant makes
no assertion here that the governing principles are unknown.
Rather Appellant repeatedly asserts, citing various sources of
extrinsic evidence, that the principles would be readily
understood by those skilled in the art (App. Br. 43, 47, 50, and
53-57) even if they are misunderstood by the Examiner (App.

35a
the absence of any verifiable test data reasonably
attributable to the purported result, the Examiner
reasonably characterized Appellant's invention as
being of an incredible nature. See, e.g., MPEP §
2107.01 (II). Despite providing eighty-six pages of
arguments and voluminous amounts of papers and
articles on the subject, we are not apprised of any
error in the Examiner's determinations. We find no
explanation as to why ordinary and conventional
magnetic pulse, laser light, or microwave produces
any meaningful quantum entanglements and, even if
it did, why it would have any meaningful long-lasting
effects on a substance so as to cause a substance to
exhibit changes in weight, temperature, and/or pH
due to alterations made to a separate and discrete
portion of that substance. There is no explanation
offered as to why spin or any other quantum
property of entangled particles would bring about
these types of changes in a remote, "non-local"
portion of a sample or substance. We are also not
apprised of any data logically evincing such an
interaction has actually occurred. We agree with the
Examiner that Appellant’s pH data, as amended or
as originally filed, is not readily decipherable

Br. 15, 16, 43, 57, 60, 66, 89, 91, and 93). If the principles
governing the operation of Appellant's method were so readily
amenable to understanding we see no reason to omit an
explanation of them from Appellant's Specification and
Appellant’s extensive briefing. The cited articles do not fill in
these gaps with specific relevance to the subject matter in
question presently before us. Furthermore, the fundamental
issue is not whether Appellant has explained how the claimed
invention works. Rather, the requirements of utility and
enablement consider whether Appellant's invention works as
claimed.

36a
and is of questionable validity. Ans. 38-39. The
various articles cited by Appellant are either generic
in nature and discuss only the possibility of quantum
entanglements occurring without explaining any
reason they would cause the interactions alleged in
the present application, from sources regarded as
having no scientific value,3 or both.
In 1931, the predecessor to our reviewing court
considered a case involving a "Method and
Apparatus for Accumulating and Transforming
Ether Electric Energy." The court's reasoning there
is equally applicable here:
It is fundamental in patent law that an
alleged invention, to be patentable, must be
not only new but useful, and that it must
appear capable of doing the things claimed in
order to be a device of practical utility.
The rule of doubt may only be applied in
favor of an applicant where the doubt is a
reasonable one, that is, one founded in reason
and engendered by testing the alleged
invention by known scientific laws and
principles.

3 See, e.g., IN THE NORWEGIAN REGISTER FOR
SCIENTIFIC JOURNALS, SERIES AND PUBLISHERS:
JOURNAL OF BIOPHYSICAL CHEMISTRY, available at
https://dbh.nsd. uib .no/publiseringskanaler/KanalTidsskriftlnfo
.action?id=4 7 8691; NEUROQUANTOLOGY, available at
httpsV/dbh.nsd. uib .no/publiseringskanaler/KanalTidsskriftlnfo
.action?id=4 7 3508; PROGRESS IN PHYSICS, available at
httpsV/dbh.nsd. uib .no/publiseringskanaler/KanalTidsskriftlnfo
.action?id=4 7 3750.

37a
Neither the Patent Office tribunals nor the
courts may properly grant patents upon a
mere possibility that a device might do the
things claimed for it, and be useful. There
must
be
definiteness.
Neither
the
Constitution nor the statutes contemplate
the granting of patents upon theories, nor
a monopoly upon intellectual
giving
speculations embodied in devices incapable of
scientific analysis.
The question of patentable invention
ordinarily must be determined by applied
science, as understood by those skilled in the
art to which the invention relates, and, if one
presents a device which cannot be tested by
any known scientific principles, he must, at
least, demonstrate its workability and utility
and make clear the principles upon which it
operates.
No such demonstration here appears from
appellant's application, or otherwise. Three
affidavits are presented of parties who claim
to have seen appellant’s device in operation
and who vouch for its working. These
affidavits, however, are brief, general in
character, and give no description of the
device which affiants saw. Nor do they give
any explanation which contains anything
tending to clarify the terminology of the
specification, or to render the device
measurable by engineering principles or
known natural laws.

38a
In re Perrigo, 48 F.2d 965, 966 (CCPA 1931)
(citations omitted); accord In re Ferens, 417 F.2d
1072, 1074 (CCPA 1969) ("[Wlhere an applicant
predicates utility for the claimed invention on
allegations of the sort here which are or border on
the incredible in light of contemporary knowledge of
the particular art, those allegations must be
substantiated by acceptable evidence."); In re
Eltgroth, 419 F.2d 918,922 (CCPA 1970) ("The
invention relates to the control of growth, aging and
degeneration in living organisms, particularly to
appellant's alleged discovery of what appears to be a
key for the solution of the problems associated with
these life processes .... Undoubtedly, the alleged
utility of control of the aging process in living
organisms and the significant beneficial results
flowing therefrom is adequate. Yet, there is a
conspicuous absence of proof thereof.").
For the foregoing reasons and those stated by
the Examiner (Final Act. 3-37; Ans. 11-39), after
consideration of the evidence and arguments of
record, we are not apprised of error in the
Examiner's position concerning a lack of utility
under§ 101 and a lack of enablement under§ 112,
first paragraph.
DECISION
The Examiner’s rejections are affirmed.
No time period for taking any subsequent
action in connection with this appeal may be
extended under 37 C.F.R. § 1.136(a). See 37 C.F.R. §
1.136(a)(l)(iv).
AFFIRMED

39a
APPENDIX C
(C.A.J.A. 27-13)

UNITED STATES PATENT AND TRADEMARK
OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
Ex parte HUPING HU
Appeal 2018-003398
Application 13/449,739
Technology Center 3700

Before: CHARLES N. GREENHUT, JEFFREY A.
STEPHENS, and ALYSSA A. FINAMORE,
Administrative Patent Judges.

GREENHUT, Administrative Patent Judge.

DECISION ON APPEAL1

1 Related appeals are: 2018-003120 in application 11/670,996;
2018-003401 in application 13/492,830; and 2018-007211 in
application 11/944,631.

40a
STATEMENT OF THE CASE
Appellant appeals under 35 U.S.C. § 134(a)
from a rejection of claims 1-3, 6-8, 12, and 13. We
have jurisdiction under 35 U.S.C. § 6(b). Appellant
criticizes the
Examiner for not proposing
amendments to the claims or new claims because
Appellant is pro se. See App. Br. 24; Reply Br. 9.
Because it is a matter of examination practice that
does not sufficiently relate to a specific rejection of
the claims before us, we lack jurisdiction over the
issues of pro se treatment. In re Hengehold, 440 F.2d
1395 (CCPA 1971); 37 C.F.R. § 1.181; see App. Br.
24; Reply. Br 9.
We affirm.
CLAIMED SUBJECT MATTER
The claims are directed to an apparatus for
producing quantum entanglement and non-local
effects of substances. Spec. para. 2. Claim 1,
reproduced below, is illustrative of the claimed
subject matter;
Claim l; An apparatus for producing a
plurality of quantum entanglements between
a first plurality of quantum entities in a
chemical substance and a second plurality of
quantum entities in a human or animal, a
non-local chemical effect of said human or
animal on said chemical substance through
said plurality of quantum entanglements
and/or a non-local biological effect of said
chemical substance on said human or animal
through
said
plurality
of
quantum
entanglements which comprises;

41a
a quantum-entanglement generating
source which emits a plurality of quantumentangling photons or magnetic pulses when
said source operates;
a first container for holding said chemical
substance disposed next to said source; and
said chemical substance in said
container;
such that when said first container is
filled with said chemical substance is
disposed next to said human or animal, and
said source operates, said photons or
magnetic pulses interact with said first
plurality of quantum entities in said
chemical substance and said second plurality
of quantum entities in said human or animal
generating said plurality of quantum
entanglements, said non-local chemical effect
through said plurality of quantum
entanglements which comprises an effect of
said human or animal on a chemical property
or process of said chemical substance and/or
said biological non-local effect through said
plurality of quantum entanglements which
comprises an effect of said chemical
substance on a biological property or process
of said human or animal.
REJECTIONS
Claims 1-3, 6*8, 12, and 13 are rejected under
35 U.S.C. § 112, first paragraph, as failing to comply
with the written description requirement.

42a
Claims 1-3, 6-8, 12, and 13 are rejected under
35 U.S.C. § 112, first paragraph, as failing to comply
with the enablement requirement.
Claims 1-3, 6-8, 12, and 13 are rejected under
35 U.S.C. § 112, second paragraph, as being
indefinite.
Claims 1-3, 6-8, 12, and 13 are rejected
because the claimed invention is directed to a judicial
exception to 35 U.S.C. § 101.
Claims 1, 6, and 12 are rejected under 35
U.S.C. § 102(b) as being anticipated by Kiontke (US
6,425,851 B1 iss. July 30, 2002).
OPINION
At issue in this case are the apparatus claims
associated with the method discussed in appeal
number 2018-003120 (application 11/670,996).
Enablement under § 112\ first paragraph
The issues now before us regarding the
enablement rejection under 35 U.S.C. § 112, first
paragraph, are substantially the same as in 2018003120. The claims subject to the enablement
rejection are argued as a group (App. Br. 11-22), with
claim 1 being representative under 37 C.F.R. §
41.37(l)(iv).2 Paragraphs 9 and 11 of Appellant’s
Specification summarize the invention as follows^
2 Claims 2 and 3 are cited by Appellant to contest the
Examiner’s determination regarding the breadth of claim 1
under In re Wands, 858 F.2d 731 (Fed. Cir. 1988). Claims 2 and
3 are not considered separately argued.

43a
[Para 9] For example, using the apparatus
and method developed in this invention I
have discovered that applying magnetic
pulses to a biological system such as the
human brain when a substance such as a
general anesthetic was placed in between
caused the brain to feel the effect of said
anesthetic for several hours after the
treatment as if the test subject had actually
inhaled the same.
[Para 11] Further, I have verified as detailed
below that said biological effect was the
consequence of quantum entanglement
between quantum entities inside the
biological system such as the human brain
and those of the substance under study
induced by the photons of the magnetic
pulses, laser light, microwave or flashlight.
The Examiner provided a detailed analysis,
citing various evidentiary sources, including, but not
limited to, those submitted by Appellant, in
considering the Wands factors (see In re Wands, 858
F.2d 731; MPEP § 2164.01) as they relate to
enablement. See Final Act. 2-6. We agree with the
Examiner’s analysis, which raised reasonable doubts
as to the Specification’s compliance with the
enablement requirement. Appellant’s arguments
(App. Br. 11-21) merely make allegations contrary to
those made by the Examiner without any meaningful
analysis citing specific examples apprising us as to
precisely how the Specification is enabling for the
subject matter claimed. Appellant cites, inter alia,
paragraphs 43 and 45 of the Specification (App. Br.
18), which, along with Figure 1A, are reproduced

44a
below to summarize an embodiment of Appellant’s
invention*

110

112

FIG. JA
[Para 43] In one particular embodiment, the
containerl30 is a small glassware of the
dimensions about I"x3"x4" with a useful
internal volume of about 20ml, and the
source 110 is made up of a magnetic coil 111
and an audio system 112 connected to the
said magnetic coil. The said small glassware
has a cap which is removable so that the
container can be filled or emptied. The said
magnetic coil is made up of a 75-feet and 26gauge magnetic wire coated with enamel for
insulation and wound on an open-ended
plastic tube of the dimensions 3" in length
and 1.5" in diameter. The said audio system
is a typical consumer electronic product or a

45a
combination of several consumer electronic
products readily available from a consumer
electronics store.
[Para 45] To use the apparatus having this
particular embodiment, one disposes the said
apparatus 100 adjacent to a responsive
target 500 such as a person’s brain, and plays
music on the audio system 112 with a desired
output power and for a desired length of time
whereby the photons generated by the
magnetic coil 111 first quantum-entangle
with quantum entities inside the substance
120, then travel to the biological system 500
and subsequently entangle with the quantum
entities inside the biological system 500
producing non-local effect of the substance
120 on the biological system 500 through
quantum entanglement.
We have no doubt that if Appellant’s invention is
able to use quantum entanglement to administer a
general anesthetic to the human brain by directing
music toward that brain through a container of that
anesthetic it would be groundbreaking and
revolutionary. See App. Br. 24. However, due to the
absence of any known scientific principles explaining
how Appellant’s invention could possibly operate in
this manner, the absence of any cogent explanation
in Appellant’s Specification regarding the general
principals or mechanisms causing this to occur,3 and
3 That is not to say that Appellant must, in all cases, explain
the scientific principles governing how a device operates if they
are not known. See In re Anfhauser, 399 F.2d 275, 283 (CCPA
1968) (explaining an applicant “is not legally required to
comprehend the scientific principles on which the practical

46a
the absence of any verifiable test data reasonably
attributable to the purported result, the Examiner
reasonably characterized Appellant’s Specification as
failing to satisfy the enablement requirement.
Despite extensive arguments and voluminous
submissions of articles on the subject, we are not
apprised of any error in the Examiner’s
determinations. We find no explanation as to why
ordinary and conventional audio produces any
meaningful quantum entanglements and, even if it
did, why they would have any meaningful effects on
the pharmacological interaction between an
anesthetic agent and the brain. There is no
explanation offered as to why spin or any other
quantum property of entangled particles would bring
about a pharmacological effect in a subject,
particularly one mimicking the known and expected
effects a substance causes via its known and typical
biochemical pathways. We are also not apprised of
any data logically evincing such a pharmacological
interaction has actually occurred. We agree with the
effectiveness of his invention rests”). However, Appellant makes
no assertion here that the governing principles are unknown.
Rather Appellant repeatedly asserts, citing various sources of
extrinsic evidence, that the principles would be readily
understood by those skilled in the art (App. Br. 18‘19, 21) even
if they are misunderstood by the Examiner (App. Br. 241 Reply.
Br. 11, 14). If the principles governing the operation of
Appellant’s method were so readily amenable to understanding
we see no reason to omit an explanation of them from
Appellant’s Specification and Appellant’s extensive briefing.
The cited articles do not fill in these gaps with specific
relevance to the subject matter in question presently before us.
Furthermore, the fundamental issue is not whether Appellant
has explained how the claimed invention works. Rather, the
requirements of utility and enablement consider whether
Appellant’s invention works as claimed.

47a
Examiner that heart rate changes (App. Br. 28-29),
even if present, do not amount to such evidence
because heart rate changes do not necessarily
demonstrate a specific pharmacological interaction.
Ans. 4. The various articles cited by Appellant are
either generic in nature and discuss only the
possibility of quantum entanglements occurring
without explaining any reason they would cause the
interactions alleged in the present application, from
sources regarded as having no scientific value,4 or
both. In light of all this uncertainty, we agree with
the Examiner that undue experimentation would be
required to practice the invention as claimed.
Accordingly, we sustain the Examiner’s enablement
rejection.
Written Description under § 112\ first paragraph
The claims subject to the written-description
rejection are argued as a group (App. Br. 6-11) for
which claim 1 is representative under 37 C.F.R. §
41.37(c)(l)(iv).
The purpose of the “written description”
requirement is broader than to merely
explain how to “make and use”; the applicant
must also convey with reasonable clarity to
4 See, e.g., IN THE NORWEGIAN REGISTER FOR
SCIENTIFIC JOURNALS, SERIES AND PUBLISHERS:
JOURNAL OF BIOPHYSICAL CHEMISTRY, available at
https://dbh.nsd.uib.no/publiseringskanaler/KanaITidsskriftInfo.
action?id=47869i; NEUROQUANTOLOGY, available at
https://dbh.nsd.uib.no/publiseringskanaler/KanalTidsskriftInfo.
action?id=47 3508; PROGRESS IN PHYSICS, available at
https://dbh.nsd.uib.no/publiseringskanaler/KanalTidsskriftInfo.
action?id=47 3750.

48a
those skilled in the art that, as of the filing
date sought, he or she was in possession of
the invention. The invention is, for purposes
of the “written description” inquiry, whatever
is now claimed.
Vas-Cath Inc. v. Mahurkar, 935 F.2d 1555, 1563-64
(Fed. Cir. 1991) (emphasis omitted).
Some of the Examiner’s discussion (Final Act.
3; Ans. 3-5) regarding the written description
requirement arguably relates to the operability of the
device and may be more suited to the
enablement/utility analysis discussed above and in
the related appeals. Nevertheless, the Examiner
raises a valid point with regard to the written
description requirementFurthermore, Applicant discloses the source
can be anything and states one of ordinary
skill will be able to readily determine the
operating
source
and
appropriate
specifications (see specification paragraph
39). Although some examples are listed, the
examples are widely disparate and unrelated
and don’t provide guidance or limits as to
what could or could not be a source.
Similarly, Applicant discloses that any
substance and container can be used (see
specification paragraphs 40-41).
Final Act. 3.
The issue raised by the Examiner concerns the
breadth of the recitations related to the source and

49a
substance aspects of the claim. Regarding the source,
Appellant’s Specification provides:
[Para 51] The said source will be, depending
on a particular use, any source, such as a
magnetic coil connected to a driving device,
laser, microwave oven, flashlight or even a
biological system, which is capable of
generating quantum-entangling members
such as photons, electrons, atoms or
molecules when said source operates. The
selection and operating specifications of the
source will vary according to the use. The
person skilled in the art will be able readily
to determine the appropriate source and
operating specifications of said source, with
only routine experimentation, for optimum
performance of the specific use intended.
Regarding the substance, Appellant’s Specification
provides:
[Para 40] The said substance will be,
depending on the use, a single substance or a
mixture of several substances and has the
physical forms of a liquid, gel, powder, solid
or gas, or a mixture of these said forms.
Again, the selection of the substance or
specific mixture of substances and their
precise concentrations will vary according to
the use. It will, however, from the
information herein, be well within the ability
of a person of ordinary skill in the art to
select the appropriate mixture of substances
for the particular use intended by such

50a
person, with no
experimentation.

more

than

routine

The Specification provides a few examples of
suitable sources and substances. However, claim 1
encompasses subject matter wherein anything
capable of generating photons or magnetic pulses for
causing quantum entanglements, whether known or
unknown, described in Appellant’s Specification or
not, can be the source. Similarly, claim 1
encompasses subject matter wherein any substance,
whether known or unknown, described in Appellant’s
Specification or not, that can have its therapeutic
properties administered to a patient via quantum
entanglements. In this emerging field of technology,
it is relatively clear that Appellant has not
demonstrated possession of a sufficient number of
sources and substances to broadly claim subject
matter that covers all possible photon and magnetic
sources that may generate quantum entanglements
and all possible substances that may have properties
conveyed by them. Even if we were to set aside the
question of enablement and assume that Appellant
has demonstrated possession of a limited number of
sources and substances, the scope of the right to
exclude that would be granted by claim 1 would far
exceed Appellant’s contribution to the art—
preempting the future before it has arrivedPatents are not awarded for academic
theories, no matter how groundbreaking or
necessary to the later patentable inventions
of others. “[A] patent is not a hunting license.
It is not a reward for the search, but
compensation for its successful conclusion.”
Requiring a written description of the

51a
invention limits patent protection to those
who actually perform the difficult work of
“invention”—that is, conceive of the complete
and final invention with all its claimed
limitations—and disclose the fruits of that
effort to the public.
That research hypotheses do not qualify for
patent protection possibly results in some
loss of incentive .... But claims to research
plans also impose costs on downstream
research, discouraging later invention. The
goal is to get the right balance, and the
written description doctrine does so by giving
the incentive to actual invention and not
attempt [s] to preempt the future before it has
arrived. As this court has repeatedly stated,
the purpose of the written description
requirement is to ensure that the scope of the
right to exclude, as set forth in the claims,
does not overreach the scope of the inventor’s
contribution to the field of art as described in
the patent specification. It is part of the quid
pro quo of the patent grant and ensures that
the public receives a meaningful disclosure in
exchange for being excluded from practicing
an invention for a period of time.
AriadPharms., Inc. v. EliLilly & Co., 598 F. 3d 1336,
1353-54 (Fed. Cir. 2010) (en banc) (citations and
internal quotations omitted).
Accordingly, we sustain the Examiner’s writtendescription rejection.

52a
Indefiniteness under 35 U.S.C. § 112, second
paragraph
The Examiner included two grounds for rejecting
the claims under 35 U.S.C. § 112, second paragraph.
The first isclaims 1 and 12 do not specify how the source
operates and no specific structure for the
apparatus is recited. Since it is unclear what
interaction and effect applicant is claiming,
what structure defines the apparatus, how
the apparatus operates, and how the effect is
generated, the metes and bounds of the
claim [s] are not clear.
Final Act. 6-7. Appellant correctly argues (App. Br.
23-24) this issue relates to breadth and, without
more, not indefiniteness. Accordingly, we do not
sustain the § 112-second-paragraph rejection on this
particular basis.
The next basis for the Examiner’s rejection under
§ 112, second paragraph isClaim 1 recites “and said chemical substance
in said container” in lines 9-10. This
language is indefinite because it is unclear
whether this is meant to specify the chemical
substance in said container as an additional
element of the claim or whether this is •
specifying the container holds the chemical
substance in the previous clause.
Final Act. 7. We agree that the phrase in question is
ambiguous for the reasons stated by the Examiner.

53a
Appellant did not elect to adopt the Examiner’s
proposed change (Final Act. 7) to reduce the issues
presented for appeal or to contest this particular
grounds for rejection under § 112, second paragraph.
As this ground for rejection stands uncontroverted,
we sustain the Examiner’s rejection of claims 1-3 and
6-8 on this basis. See In re Berger, 279 F.3d 975
(Fed. Cir. 2002) (affirming the Board’s affirmance of
an uncontested rejection, holding that the appellant
had waived the right to contest the rejection by not
presenting arguments on appeal to the Board); Hyatt
v. Dudas, 551 F.3d 1307, 1314 (Fed. Cir. 2008)
(“[T]he applicant can waive appeal of a ground of
rejection.”). The Examiner does not reject
independent claim 12 on this basis, so this ground is
not applicable to claims 12 and 13.
Anticipation under § 102(b)
The claims subject to the anticipation rejection
are argued as a group (App. Br. 43) for which claim 1
is representative. It is undisputed that the Examiner
found each and every structural element of claim 1 in
Kiontke. Final Act. 8-9. To summarize Appellant’s
argumentteaches/mentions
neither
Kiontke
quantum entanglement set forth in the
instant Application nor teaches/mentions
how to produce quantum entanglement.
Further, Kiontke neither teaches/mentions
non-local effect nor teaches/mentions or how
to produce non-local effect.... The entire
Kiontke text makes no mention of quantum
entanglement, production of quantum

54a
entanglement,
non-local
production of non-local effect.

effect

and

App. Br. 43.
Appellant’s argument misses the point. Where,
as here, the Examiner has shown, citing Appellant’s
own Specification as supporting evidence,5 that the
prior art contains the same structure, it is reasonable
for the Examiner to conclude that the prior art
structure will exhibit the same latent properties,
which include generating “quantum entanglements”
and “non- local [ ] effects.” See In re Spada, 911 F.2d
705, 708 (Fed. Cir. 1990). Appellant has not provided
any cogent scientific reasoning or evidence to apprise
us of error in the Examiner’s determination in this
regard. Claims differing from a prior-art process by
no more than the recitation of a result do not
distinguish those claims over the prior art. BristolMyers Squibb Co. v. Ben Venue Labs., Inc., 246 F.3d
1368, 1376-77 (Fed. Cir. 2001). Even assuming
Appellant did discover that non-local effects of a
substance could be created in a subject by placing the
substance between the subject and a magnetic coil
due to quantum entanglements, this discovery,
however profound, does not, without more,
distinguish over the Kiontke apparatus. Something
old does not become patentable by the discovery of a
new property or previously unknown principle of
operation. SfeeMPEP § 2112. Accordingly, we sustain
the Examiner’s anticipation rejection.

5 See, e.g., Elan Pharms., Inc. v. Mayo Found., 304 F.3d 1221
(Fed. Cir.), Dyk, J., dissenting (distinguishing inherency from
hindsight), vacated at 314 F.3d 1299 (Fed. Cir. 2002) (en banc).

55a
Subject matter eligibility under §101
The claims subject to this ground of rejection
are argued as a group (App. Br. 25—42) with claim 1
being representative.
The structural elements of claim 1 are “a
quantum-entanglement generating source,” “a first
container,” and, arguably (see § 112, second
paragraph discussion above), “a chemical substance.”
The remainder of the claim describes the purported
natural effects flowing from operating the source
next to the container which is, in turn, next to a
subject.6 The Examiner concludes claim 1 is directed
to a natural phenomenon of generating quantum
entanglements which, along with their interactions
with a subject, are natural results of magnetic pulses
or photons, and therefore falls within a judicial
exception to subject matter eligible for patenting.
Final Act. 7-8; see, e.g., Alice Corp. v. CLSBanklntl,
573 U.S. 208, 216 (2014) (“Laws of nature, natural
phenomena, and abstract ideas” are not patentable.);
6 See claim 1 (“such that when said first container is filled with
said chemical substance is disposed next to said human or
animal, and said source operates, said photons or magnetic
pulses interact with said first plurality of quantum entities in
said chemical substance and said second plurality of quantum
entities in said human or animal generating said plurality of
quantum entanglements, said non-local chemical effect through
said plurality of quantum entanglements which comprises an
effect of said human or animal on a chemical property or
process of said chemical substance and/or said biological non­
local effect through said plurality of quantum entanglements
which comprises an effect of said chemical substance on a
biological property or process of said human or animal”).

56a
see also MPEP § 2106.04(b). The Examiner considers
the source and container limitations and determines
they lack the particularity necessary for a machine,
transformation, or useful application to bring the
claim within the ambit of subject matter that is a
patent-eligible practical application. Final Act. 8; see
MPEP §§ 2106.05(a)-(c). It is undisputed and
consistent with Appellant’s own Specification that
the componentry relied upon to bring about the
purported effects is well-understood, routine, and
conventional. See Spec, paras. 40, 51, reproduced
above, and para. 4K7 see afeoMPEP § 2106.05(d).
Appellant first argues the Examiner took an
alternate position previously in prosecution. App. Br.
26. This has no bearing on the rejection presently
before us. In re Ruschig, 379 F. 2d 990, 993 (CCPA
1967) (“There is nothing unusual, certainly, about an
examiner changing his viewpoint as to the
patentability of claims as the prosecution of a case
progresses, and, so long as the rules of Patent Office
practice are duly complied with, an applicant has no
legal ground for complaint because of such change in
view.” (quoting In re Ellis, 86 F.2d 412, 414 (CCPA
1936))). Appellant also argues, “the pending claims
do include additional elements that are sufficient to
amount to significantly more than the judicial
exception - One only needs to read the pending
claims in the context of the Specification to reach
this conclusion.” App. Br. 26. Without any analysis of
7 [Para 41] The container will be any material and form capable of
supportive functions such as a simple plastic frame, a glass or plastic
bottle, or polymer matrix. The container will be optional if the substance
or the mixture of substances will be made into an appropriate solid.
Further, the container will be at least partially transparent to quantumentangling members such as photons generated by the source.

57a
the specific claim language in question, this
argument is of little persuasive value. Arguments
must address the Examiner’s action. 37 C.F.R. §
41.37(c)(l)(iv) (“The arguments shall explain why the
examiner erred as to each ground of rejection
contested by appellant.”). “Filing a Board appeal does
not, unto itself, entitle an appellant to de novo review
of all aspects of a rejection.” See Ex Parte Frye, 94
USPQ2d 1072, 1075 (BPAI 2010) (precedential)
(citations omitted). “[T]he Board will not, as a
general
matter,
unilaterally
review
those
uncontested aspects of the rejection.” Id. at 1075*76
(citations omitted). Appellant also contends the
Examiner’s issue relates to breadth. App. Br. 26.
Issues of breadth are discussed above with regard to
the rejections under the first paragraph of § 112.
However, that does not make issues of breadth
irrelevant to the eligibility inquiry under § 101
where one must frequently determine whether a
limitation is “particular” or “generic.” See, e.g.,
MPEP § 2106.05.
The PTO recently published revised guidance on
the application of §101. 2019 Revised Patent Subject
Matter Eligibility Guidance, 84 Fed. Reg. 50 (Jan. 7,
2019) (“Guidance”). Under that guidance, one should
consider whether a claim recites a judicial exception
and if so, whether the claim recites additional
elements that integrate the judicial exception into a
practical application fee MPEP § 2106.05(a)-(c), (e)_
(h)) and whether the claim includes a specific
limitation beyond the judicial exception that is not
“well*understood, routine, conventional” in the field
fee MPEP § 2106.05(d)).

58a
The remainder of Appellant’s arguments do not
appear to have any relevance whatsoever to the
various factors that should be considered in a §101
analysis. App. Br. 27-12; Ans. 9. The Examiner’s
analysis, summarized above, is consistent with PTO
guidance and stands essentially uncontroverted.
Accordingly, we adopt the Examiner’s position8 and
sustain the § 101 rejection on the basis set forth by
the Examiner.
DECISION
The rejection of claims 1-3, 6'8, 12, and 13 under
35 U.S.C. § 112, first paragraph, as failing to comply
with the written description requirement is affirmed.
The rejection of claims 1-3, 6*8, 12, and 13 under
35 U.S.C. § 112, first paragraph, as failing to comply
with the enablement requirement is affirmed.
The rejection of claims 1*3 and 6*8 under 35
U.S.C. § 112, second paragraph, as being indefinite is
affirmed.
The rejection of claims 12, and 13 under 35
U.S.C. § 112, second paragraph, as being indefinite is
reversed.
The rejection of claims 1-3, 6-8, 12, and 13
because the claimed invention is directed to a judicial
exception to 35 U.S.C. § 101 is affirmed.

8 See, e.g., In re Paulsen, 30 F. 3d 1475, 1478 n. 6 (Fed. Cir. 1994);
accord In re Cree, 818 F.3d 694, 698 n.2 (Fed. Cir. 2016).

59a
The rejection of claims 1, 6, and 12 under 35
U.S.C. § 102(b) as being anticipated by Kiontke is
affirmed.
No time period for taking any subsequent action
in connection with this appeal may be extended
under 37 C.F.R. § 1.136(a).
See 37 C.F.R. §
1.136(a)(1) (iv).
AFFIRMED9

9 <

The affirmance of the rejection of a claim on any of the
grounds specified constitutes a general affirmance of the
decision of the examiner on that claim, except as to any ground
specifically reversed.” 37 C.F.R. § 41.50(a).

60a
APPENDIX D
(C.A.J.A. 45-62)

UNITED STATES PATENT AND TRADEMARK
OFFICE

BEFORE THE PATENT TRIAL AND APPEAL
BOARD
Ex parte HUPING HU and MAOXIN WU
Appeal 2018-003401
Application 13/492,830
Technology Center 3700

Before: CHARLES N. GREENHUT, JEFFREY A.
STEPHENS, and ALYSSA A. FINAMORE,
Administrative Patent Judges.

GREENHUT, Administrative Patent Judge.

DECISION ON APPEAL1

1 Related appeals are: 2018-003398 in application 13/449,739;
2018-003120 in application 11/670,996; and 2018-007211 in
application 11/944,631.

61a
STATEMENT OF THE CASE
Appellants appeal under 35 U.S.C. § 134(a)
from a rejection of claims 5, 7-9, 11 and 12.2 We have
jurisdiction under 35 U.S.C. § 6(b). Because it
concerns a matter of examination practice that does
not sufficiently relate to a specific rejection of the
claims before us, we lack jurisdiction over the issues
of pro se treatment. In re Hengehold, 440 F.2d 1395
(CCPA 1971); 37 C.F.R. § 1.181; see App. Br. 28;
Reply. Br 10.
We affirm.
CLAIMED SUBJECT MATTER
The claims are directed to a method and
apparatus for producing and detecting non-local
effects of substances. Claim 5, reproduced below, is
illustrative of the claimed subject matter:
Claim 5- A method of producing and
detecting a second plurality of quantum
entanglements between a third plurality of
quantum entities in a first target and a
fourth plurality of quantum entities in a
second target, a first non-local effect of said
second target on said first target through
said
second
plurality
of
quantum
entanglements and/or a second non-local
effect of said first target on said second target
through said second plurality of quantum
entanglements which comprises the steps of

2 The copy of the claims in the Claims Appendix attached to the
Appeal Brief is incorrect. We refer herein to the finally rejected
claims as presented in an amendment filed September 4, 2016.

62a
selecting
said first target which
comprises a first chemical substance, human
or animal at a first location!
selecting said second target which
comprises a second chemical substance,
human or animal at a second location!
providing a first water-based medium at
said first location and a second water-based
medium at said second location, a first
plurality of quantum entities in said first
medium being in a first plurality of quantum
entanglements with a second plurality of
quantum entities in said second medium!
providing a detecting means for detecting
said
second
plurality
of
quantum
entanglements, said first non-local effect
and/or said second non-local effect when said
detecting means operates!
causing said first target to interact with
said first water-based medium through a first
contact or radiation from a first photon or
magnetic pulse generating source!
causing said second target to interact
with said second water-based medium
through a second contact or radiation from a
second photon or magnetic pulse generating
source! and
detecting said second plurality of
quantum entanglements, said first non-local
effect and/or said second non-local effect!
whereby said second plurality of
quantum entanglements between said third
plurality of quantum entities in said first
target and said fourth plurality of quantum
entities in said second target is generated
through said interaction between said third

63a
plurality of quantum entities in said first
target and said first plurality of quantum
entities in said first water-based medium and
said interaction between said fourth plurality
of quantum entities in said second target and
said second plurality of quantum entities in
said second water-based medium, and
detected through said detecting means; and
said first non-local effect of said second target
on said first target, comprising a first effect
of said second target on a first physical,
chemical or biological property or process of
said first target, and/or said second non-local
effect of said first target on said second
target, comprising a second effect of said first
target on a second physical, chemical or
biological property or process of said second
target, are generated through said second
plurality of quantum entanglements between
said third plurality of quantum entities in
said first target and said fourth plurality of
quantum entities in said second target and
detected through said detecting means.
REJECTIONS3
Claims 5, 7-9, 11, and 12 are rejected
under 35 U.S.C. § 112, first paragraph, as failing
to comply with the written description
requirement.
Claims 5, 7-9, 11, and 12 are rejected
under 35 U.S.C. 112, first paragraph, as failing
to comply with the enablement requirement.
3 The Examiner withdrew the anticipation rejection. Ans. 2.

64a
Claims 5, 7-9, 11, and 12 are rejected
under 35 U.S.C. § 112, second paragraph, as
being indefinite.
Claims 5, 7-9, 11, and 12 are rejected
under 35 U.S.C. § 101 because the claimed
invention lacks patentable utility.
Claims 5, 7-9, 11, and 12 are provisionally
rejected on the ground of nonstatutory double
patenting as being unpatentable over claims 14, 18,
19, 23, and 24 of copending Application No.
11/670,996.4
OPINION
Enablement under § 112\ Erst paragraph and utility
under §101
For each of these rejections, Appellants argue
the claims as a group (App. Br. 12-23; 29-64), for
which claim 5 is representative under 37 C.F.R. §
41.37(c)(l)(iv). 5 With regard to the questions of
enablement and utility, our reviewing court has
summarized-

4 The double-patenting rejection is not contested and therefore
not further addressed herein. “Once the provisional rejection
has been made, there is nothing the examiner and the applicant
must do until the other application issues.” In re Mott, 539 F.
2d 1291, 1295-96 (CCPA 1976); see also MPEP § 804(l).
5 Claims 7, 8, 11, and 12 are cited by Appellant to contest the
Examiner’s determination regarding the breadth of claim 5
under In re Wands, 858 F.2d 731 (Fed. Cir. 1988). App. Br. 1213. Claims 7, 8, 11, and 12 are not considered separately
argued.

65a
The questions of whether a specification
provides an enabling disclosure under § 112,
J 1, and whether an application satisfies the
utility requirement of § 101 are closely
related.
To
satisfy the
enablement
requirement of § 112, H 1, a patent
application must adequately disclose the
claimed invention so as to enable a person
skilled in the art to practice the invention at
the time the application was filed without
undue
experimentation.
The
utility
requirement of § 101 mandates that the
invention be operable to achieve useful
results. Thus, if the claims in an application
fail to meet the utility requirement because
the invention is inoperative, they also fail to
meet the enablement requirement because a
person skilled in the art cannot practice the
invention. The how to use prong of section
incorporates as a matter of law the
requirement of 35 U.S.C. § 101 that the
specification disclose as a matter of fact a
practical utility for the invention. Lack of
utility is a question of fact, and the absence
of enablement is a legal conclusion based on
underlying factual inquiries.
In re Swartz, 232 F. 3d 862, 863 (Fed. Cir. 2000)
(quotations and internal citations omitted); see also
MPEP§ 2164.07.
The paragraphs of Appellants’ Specification
reproduced below summarize the invention as
follows-

66a
[Para 6] My invention and discovery were
made against such background. No process
has previously been known which can
produce non-local effects of substances
on
entanglement
quantum
through
responsive targets such as biological or
chemical systems, so that beneficial effects of
the said substances can be delivered through
quantum-entangling media such as photons
of various sources.
[Para 10] The subject invention is therefore
based on my realizations that (l) quantum
genuine
means
entanglement
interconnectedness and inseparableness of
once interacting quantum entities and can be
directly sensed and utilized by the entangled
quantum entities; (2) it can persist in
biological, chemical and other systems at
room and higher temperatures despite of
quantum decoherence; and (3) it can
influence chemical and biochemical reactions,
other physical processes and micro- and
macroscopic properties of all forms of
matters. Therefore, it can be harnessed and
developed into useful technologies to serve
the mankind in many areas such as health,
medicine and even recreation besides the
already emerging fields of quantum
computation.
[Para ll] For example, using the apparatus
and method developed in this invention I
have discovered that applying magnetic
pulses to a biological system such as the
human brain when a substance such as a

67a
general anesthetic was placed in between
caused the brain to feel the effect of said
anesthetic for several hours after the
treatment as if the test subject had actually
inhaled the same.
[Para 12] For another example, using the
apparatus and method developed in this
invention I have further discovered that
drinking water exposed to magnetic pulses,
laser light, microwave or even flashlight
when a substance such as a general
anesthetic was placed in between also caused
the brain to feel the effect of said anesthetic
in various degrees as if the test subject had
actually inhaled the same.
[Paral3] Further, I have verified as detailed
below that said biological effect was the
consequence of quantum entanglement
between quantum entities inside the
biological system such as the human brain
and those of the substance under study
induced by the photons of the magnetic
pulses, laser light, microwave or flashlight.
[Para 14] For yet another example, using the
objective and quantitative detecting and
measuring apparatus and method developed
in this invention, we have further discovered
that after consumption by a voluntary
human subject of one part of water quantum
entangled with a second part of water as
disclosed in this invention, the subject’s heart
rate was increased by adding a heart
stimulant to the second part of water.

68a
[Para 16] Key to the objective and
quantitative detection and measurement in
biological systems in the present invention is
a high-sensitivity and/or high-precision
apparatus for detecting and measuring a
physiological and/or biological parameter.
The Examiner provided a detailed analysis,
citing various evidentiary sources, including, but not
limited to, those submitted by Appellants, in
considering the Wands factors as they relate to
enablement, and the question of whether the claimed
invention
contravenes
established
scientific
principles, as that question relates to the utility
requirement. See Final Act. 4-6, 8-11. We agree with
the Examiner’s analysis, which raised reasonable
doubts as to operability of Appellants’ invention and
the Specification’s compliance with the enablement
requirement. Appellants’ arguments rely mainly on
extrinsic sources that seem to bear little relevance to
the particular subject matter in question here and
patentability determinations made in other
jurisdictions. The focus of this inquiry is on
Appellants’ Specification. In that regard, Appellants
cite, inter alia, paragraphs 78, 79, 84 of the
Specification (App. Br. 15) which, along with Figure
7, are reproduced below to summarize an
embodiment of Appellants’ invention-

69a

130

n

n
FIG. 7

181

182

120

[Para 78] Again, in one particular
embodiment 104, the said source 110 is a
microwave oven enclosing the medium 180.
In another particular embodiment 105, the
said source 110 is made up of a magnetic coil
111 and an audio system 112 connected to
the said magnetic coil with the said magnetic
coil disposed adjacent to the medium 180. In
yet another embodiment 106, the said source
110 is a laser disposed adjacent to the
medium 180.
[Para 79] To use each apparatus 104, 105 or
106 having the respective embodiment, one
operates the quantum entanglement source

70a
110 with a desired output power and for a
desired length of time whereby the photons
generated by the said source 110 first
entangle with some quantum entities inside
the medium 180, and second entangle with
some other quantum entities inside the same
medium
180
producing
quantum
entanglement within the medium 180.
Subsequently, to use the quantum-entangled
medium 180, the said medium is divided into
two or more parts.
[Para 84] FIG. 7 illustrates one method of
beneficially using two parts 181 and 182 of a
quantum-entangled medium 180 produced
with apparatus 104,1 05 or 106 illustrated in
FIG. 4B (or 140 and 160 produced with
apparatus 101, 102 or 103 illustrated in FIG.
4A). The essential steps include providing
two parts 181 and 1 82of a quantumentangled medium 180, applying one part
181 to a biological system 500 such as a
human, and contacting the other part 182
with a desired substance 120 such as a
particular medication or substance encoded
with a message whereby non-local effect of
the substance 120 on the said biological
system 500 is produced for a beneficial
purpose.
With regard to the specific step of “detecting said
second plurality of quantum entanglements”
paragraph 85 and Figure 8A respectively describe
and illustrate the heart rate monitor used to detect
quantum entanglements-

71a
500

202

201

F1G.8A
[Para 85] FIG. 8A illustrates one method of
using a detecting device for objectively and
quantitatively detecting and measuring a
non-local effect in a biological system 500
such as a human. The essential steps include
providing a detecting device (such as a heart
rate monitor) comprising a probe 201
attached to the biological system 500 (such as
chest area of the human) and a display
mechanism 202 connected to said probe 201,
or a wireless probe plus transmitter 201
attached to the biological system 500 (such as
chest area of the human) and a wireless

72a
receiver plus display mechanism 202, and
detecting a change of a physical, chemical or
biological parameter (such as heart rate of
the human) produced through quantum
entanglement.
As with the inventions in the related cases
mentioned above, we have no doubt that if
Appellants’ invention is able to use quantum
entanglement to cause a therapeutic response in a
subject by administering a pharmaceutical substance
to water that is not actually consumed by that
subject but was previously microwaved with water
that is, consumed by the subject it would be
groundbreaking and revolutionary. See App. Br. 28.
However, due to the absence of any known scientific
principles explaining how Appellants’ invention
could possibly operate in this manner, the absence of
any cogent explanation in Appellants’ Specification
regarding the general principals or mechanisms
causing this to occur,6 and the absence of any
6 That is not to say that Appellants must, in all cases, explain
the scientific principles governing how a device operates if they
are not known. See In re Anfhauser, 399 F.2d 275, 283 (CCPA
1968) (explaining an applicant “is not legally required to
comprehend the scientific principles on which the practical
effectiveness of his invention rests”). However, Appellants make
no assertion here that the governing principles are unknown.
Rather Appellants repeatedly asserts, citing various sources of
extrinsic evidence, that the principles would be readily
understood by those skilled in the art (App. Br. 20, 22) even if
they are misunderstood by the Examiner (App. Br. 31—32, 53,
64). If the principles governing the operation of Appellants’
method were so readily amenable to understanding we see no
reason to omit an explanation of them from Appellants’
Specification and Appellants’ extensive briefing. The cited
articles do not fill in these gaps with specific relevance to the
subject matter in question presently before us. Furthermore,

73a
verifiable test data reasonably attributable to the
purported
result,
the
Examiner reasonably
characterized Appellants’ invention as being of an
incredible nature. See, e.g., MPEP § 2107.01(11); see
also MPEP § 2107.01(111), 2107.03 (regarding
asserted therapeutic or pharmacological utilities).
Despite forty-six pages of arguments and more than
five-hundred pages of articles on the subject, we are
not apprised of any concrete evidence or cogent
technical explanations apprising us of error in the
Examiner’s determinations. We find no explanation
as to why ordinary and conventional microwaving of
water
produces
any
meaningful
quantum
entanglements. Even if such entanglements did
occur, there is neither sufficient evidence to
demonstrate, nor cogent theory to explain why, those
quantum entanglements would result in an
unaltered portion of the water exhibiting therapeutic
properties like those expected from water containing
a therapeutic substance only by adding that
substance to a different, non-consumed, portion of
the water. There is no explanation offered as to why
spin or any other quantum property of entangled
particles would cause pharmacological changes in a
discrete water sample only by virtue of having
previously been microwaved with a water sample to
which a pharmacological substance is added. We are
also not apprised of any data logically evincing such
a pharmacological interaction has actually occurred.
We agree with the Examiner that heart rate changes
(App. Br. 57; Spec, para. 85), even if present, do not
amount to such evidence because heart rate changes
the fundamental issue is not whether Appellant has explained
how the claimed invention works. Rather, the requirements of
utility and enablement consider whether Appellant’s invention
works as claimed.

74a
do not necessarily demonstrate a specific
pharmacological interaction. Ans. 4. The various
articles cited by Appellants are either generic in
nature and discuss only the possibility of quantum
entanglements occurring without explaining any
reason they would cause the interactions alleged in
the present application, from sources regarded as
having no scientific value,7 or both.
In 1931 the predecessor to our reviewing court
considered a case involving a “Method and
Apparatus for Accumulating and Transforming
Ether Electric Energy.” The court’s reasoning there
is equally applicable here:
It is fundamental in patent law that an
alleged invention, to be patentable, must be
not only new but useful, and that it must
appear capable of doing the things claimed in
order to be a device of practical utility.
The rule of doubt may only be applied in
favor of an applicant where the doubt is a
reasonable one, that is, one founded in reason
and engendered by testing the alleged
invention by known scientific laws and
principles.

7 See, e.g., IN THE NORWEGIAN REGISTER FOR
SCIENTIFIC JOURNALS, SERIES AND PUBLISHERS:
JOURNAL OF BIOPHYSICAL CHEMISTRY, available at
https://dbh.nsd.uib.no/publiseringskanaler/KanalTidsskriftInfo.
action?id=47869i; NEUROQUANTOLOGY, available at
https://dbh.nsd.uib.no/publiseringskanaler/KAN
ALTiDSskriftInfo.action?id=4 73508; PROGRESS IN PHYSICS,
available at https://dbh.nsd.uib.no/publiseringskanaler/KAN
ALTiDSskriftInfo.action?id=4 73750.

I

75a
Neither the Patent Office tribunals nor the
courts may properly grant patents upon a
mere possibility that a device might do the
things claimed for it, and be useful. There
must
be
definiteness.
Neither
the
Constitution nor the statutes contemplate
the granting of patents upon theories, nor
giving a monopoly upon intellectual
speculations embodied in devices incapable of
scientific analysis.
The question of patentable invention
ordinarily must be determined by applied
science, as understood by those skilled in the
art to which the invention relates, and, if one
presents a device which cannot be tested by
any known scientific principles, he must, at
least, demonstrate its workability and utility
and make clear the principles upon which it
operates.
No such demonstration here appears from
appellant’s application, or otherwise. Three
affidavits are presented of parties who claim
to have seen appellant’s device in operation
and who vouch for its working. These
affidavits, however, are brief, general in
character, and give no description of the
device which affiants saw. Nor do they give
any explanation which contains anything
tending to clarify the terminology of the
specification, or to render the device
measurable by engineering principles or
known natural laws.

76a
In re Perrigo, 48 F. 2d 965, 966 (CCPA 1931)
(citations omitted)! accord In re Ferens, 417 F. 2d
1072, 1074 (CCPA 1969) (“[W]here an applicant
predicates utility for the claimed invention on
allegations of the sort here which are or border on
the incredible in light of contemporary knowledge of
the particular art, those allegations must be
substantiated by acceptable evidence.”)! In re
Eltgroth, 419 F. 2d 918, 922 (CCPA 1970) (“The
invention relates to the control of growth, aging and
degeneration in living organisms, particularly to
appellants’ alleged discovery of what appears to be a
key for the solution of the problems associated with
these life processes. . . . Undoubtedly, the alleged
utility of control of the aging process in living
organisms and the significant beneficial results
flowing therefrom is adequate. Yet, there is a
conspicuous absence of proof thereof.”).
For the foregoing reasons and those stated by
the Examiner (Ans. 3, 5*6, 9*12), after consideration
of the evidence and arguments of record, we are not
apprised of error in the Examiner’s position
concerning a lack of utility under § 101 and a lack of
enablement under § 112, first paragraph.
Written Description under § 112\ first paragraph
The claims subject to the written-description
rejection are argued as a group (App. Br. 6*11) for
which claim 5 is representative under 37 C.F.R. §
41.37(c)(l)(iv).
The purpose of the “written description”
requirement is broader than to merely
explain how to “make and use”! the applicant

77a
must also convey with reasonable clarity to
those skilled in the art that, as of the filing
date sought, he or she was in possession of
the invention. The invention is, for purposes
of the “written description” inquiry, whatever
is now claimed.
Vas-Cath Inc. v. Mahurkar, 935 F.2d 1555, 1563—64
(Fed. Cir. 199l)(emphasis omitted).
Some of the Examiner’s discussion (Final Act. 23; Ans. 3-5) regarding the written description
requirement arguably relates to the operability of the
device and may be more suited to the
enablement/utility
analysis
discussed
above.
Nevertheless, the Examiner raises a valid point with
regard to the written description requirement:
Although some examples are listed, the
examples are widely disparate and unrelated
and don’t provide guidance or limits as to
what could or could not be a source.
Similarly, Applicant discloses that any
substance and any detection device can be
used (see specification paragraphs 52-54). . . .
The Specification does not provide any
description of a mechanism for detecting
quantum entanglement, but rather only
discusses detecting non-local effects such as
increased heart rate. This claimed subject
matter is therefore not described in a way
which reasonably conveys the inventor had
possession of the claimed invention, i.e. a
method of detecting quantum entanglement
between the two targets.

78a
Final Act. 3.
The issue raised by the Examiner concerns the
breadth of the recitations related to the source and
detecting aspects of the claim.
Regarding the
provides1

source,

Appellants’

Specification

[Para 51 ] The said source will be, depending
on a particular use, any source, such as a
magnetic coil connected to a driving device,
laser, microwave oven, flashlight or even a
biological system, which is capable of
generating quantum-entangling members
such as photons, electrons, atoms or
molecules when said source operates. The
selection and operating specifications of the
source will vary according to the use. The
person skilled in the art will be able readily
to determine the appropriate source and
operating specifications of said source, with
only routine experimentation, for optimum
performance of the specific use intended.
Regarding
provides-

detection,

Appellants’

Specification

[Para 85] FIG. 8A illustrates one method of
using a detecting device for objectively and
quantitatively detecting and measuring a
non-local effect in a biological system 500
such as a human. The essential steps include
providing a detecting device (such as a heart
rate monitor) comprising a probe 201
attached to the biological system 500 (such as

79a
chest area of the human) and a display
mechanism 202 connected to said probe 201,
or a wireless probe plus transmitter 201
attached to the biological system 500 (such as
chest area of the human) and a wireless
receiver plus display mechanism 202, and
detecting a change of a physical, chemical or
biological parameter (such as heart rate of
the human) produced through quantum
entanglement.
The Specification provides a few examples of
suitable sources and one example of a detecting
method. However, claim 5 encompasses subject
matter wherein anything capable of generating
photons or magnetic pulses for causing quantum
entanglements, whether known
or unknown,
described in Appellants’ Specification or not, can be
the source. Similarly, claim 5 encompasses subject
matter wherein any method for detecting quantum
entanglements, whether known
or unknown,
described in Appellants’ Specification or not, can
perform the detecting steps. In this emerging field of
technology it is relatively clear that Appellants have
not demonstrated possession of a sufficient number
of sources and detecting techniques to broadly claim
subject matter that covers all possible photon and
magnetic sources that may generate quantum
entanglements and all possibletechniques for
detecting them. Even if we were to set aside the
question of operability and assume that Appellants
have demonstrated possession of a limited number of
sources and at least one detecting technique, the
scope of the right to exclude that would be granted by
claim 5 would far exceed Appellants’ contribution to
the art—preempting the future before it has arrived:

80a
Patents are not awarded for academic
theories, no matter how groundbreaking or
necessary to the later patentable inventions
of others. “[A] patent is not a hunting license.
It is not a reward for the search, but
compensation for its successful conclusion.”
Requiring a written description of the
invention limits patent protection to those
who actually perform the difficult work of
“invention”—that is, conceive of the complete
and final invention with all its claimed
limitations—and disclose the fruits of that
effort to the public.
That research hypotheses do not qualify for
patent protection possibly results in some
loss of incentive .... But claims to research
plans also impose costs on downstream
research, discouraging later invention. The
goal is to get the right balance, and the
written description doctrine does so by giving
the incentive to actual invention and not
attempt[s] to preempt the future before it has
arrived. As this court has repeatedly stated,
the purpose of the written description
requirement is to ensure that the scope of the
right to exclude, as set forth in the claims,
does not overreach the scope of the inventor’s
contribution to the field of art as described in
the patent specification. It is part of the quid
pro quo of the patent grant and ensures that
the public receives a meaningful disclosure in
exchange for being excluded from practicing
an invention for a period of time.

81a
AriadPharms., Inc. v. EliLilly & Co., 598 F. 3d 1336,
1353—54 (Fed. Cir. 2010) (en banc) (citations and
internal quotations omitted).
Accordingly, we sustain the Examiner’s rejection
of claims 5, 7-9, 11, and 12 as failing to comply with
the written description requirement.
Indefiniteness under 35 U.S.C.
paragraph

§ 112,

second

The Examiner included two grounds for rejecting
the claims under 35 U.S.C. § 112, second paragraph.
The first is that independent claim 5 is “incomplete
for omitting essential steps, such omission
amounting to a gap between the steps” which
“renders the claim indefinite.” Final Act. 6-7 (citing
MPEP § 2172.01). The second is that independent
claim 5 is indefinite because it “recites producing a
non-local effect but does not specify an effect or
disclose clearly how an effect is generated in a target
by interacting with a medium.” Final Act. 7. We do
not sustain the rejection under § 112, second
paragraph, on either of the grounds specified by the
Examiner.
Regarding the first ground, as mentioned in the
portion of the MPEP cited by the Examiner (§
2172.01) the omission of essential elements is
typically a concern addressed under the enablement
requirement of the first paragraph of § 112. That
same section of the MPEP also notes that the
omission of essential elements may create additional
issues under the second paragraph of § 112.
However, although such omission might create issues
under the “regards as the invention” language of

82a
§ 112, second paragraph (MPEP § 2172.018), unless
there is a specific issue of claim clarity such
omission, without more, relates to breadth as
opposed to indefiniteness. Regarding the second
ground, the Examiner points out that no specific
effect is specified. Final Act. 7. This, without more, is
again a question of breadth as opposed to
indefiniteness. The Examiner also raises issues with
regard to how the effect is generated. Final Act. 7.
This relates only to a lack of clarity in the operation
of the device as opposed to a lack of clarity in the
metes and bounds of the claimed subject matter.
Although this may relate to issues of utility and
enablement, as discussed above, the Examiner has
not, on the record before us, demonstrated how these
issues create uncertainty as to the scope of the
claimed subject matter.
With regard to claims 7 and 11, the Examiner
states with regard to the limitation,
a “magnetic coil connected to a driving
mechanism, a laser device, or a microwave
device”. It is unclear if this is meant to mean
the coil may be connected to any of these
three items (driving mechanism, laser device,
or microwave) or if the laser device and/or
microwave are intended to be distinct sources
from the coil connected to a driving
mechanism.

8 Citing In re Collier, 397 F.2d 1003 (CCPA 1968) (holding the
claim “fails to comply with section 112, second paragraph, in
failing distinctly to claim what appellant in his brief insists is
his actual invention”).

83a
Final Act. 7. However, in light of Appellants’
consistent use of commas and semi-colons
throughout the claim, only the first of the Examiner’s
proposed interpretations is reasonable. Thus, we are
not apprised of any ambiguity in the specific clause
quoted by the Examiner.
For the foregoing reasons, we do not sustain
the Examiner’s rejections under § 112, second
paragraph on the bases set forth by the Examiner.
DECISION
The Examiner’s rejections under § 101 and §
112, first paragraph are affirmed. The Examiner’s
rejection under § 112, second paragraph, is reversed.
No time period for taking any subsequent
action in connection with this appeal may be
extended under 37 C.F.R. § 1.136(a). See 37 C.F.R. §
1.136(a) (l)(iv).
AFFIRMED

84a
APPENDIX E
(C.A.J.A. 2-13)

UNITED STATES PATENT AND TRADEMARK
OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD

Ex parte HUPING HU

Appeal 2018-003120
Application 11/670,996
Technology Center 3700

Before: CHARLES N. GREENHUT, JEFFREY A.
STEPHENS, and ALYSSA A. FINAMORE,
Administrative Patent Judges.

GREENHUT, Administrative Patent Judge.

DECISION ON APPEAL1

Related appeals are- 2018*003398 in application 13/449,739:
2018*003401 in application 13/492,830; and 2018*007211 in
application 11/944,631.

85a
STATEMENT OF THE CASE
Appellant appeals under 35 U.S.C. § 134(a)
from a rejection of claims 1, 3-7, 11, 14, 18, 19, 23,
24, 32-34, 36, 37, 44 and 46. We have jurisdiction
under 35 U.S.C. § 6(b). Because they are matters of
examination practice that do not sufficiently relate to
a specific rejection of the claims before us, we lack
jurisdiction over the issues of pro se treatment and
interview requests. In re Hengehold, 440 F.2d 1395
(CCPA 1971); 37 C.F.R. § 1.181; see App. Br. 32.
We affirm.

CLAIMED SUBJECT MATTER
The claims are directed to a method for
producing quantum entanglement and non-local
effects of substances. Claim 1, reproduced below, is
illustrative of the claimed subject matterClaim 1* A method of producing a plurality of
quantum entanglements between a first plurality of
quantum entities in a first target and a second
plurality of quantum entities in a second target, a
first non-local effect of said second target on said first
target through said plurality of quantum
entanglements and/or a second non-local effect of
said first target on said second target through said
plurality of quantum entanglements which comprises
the steps of
selecting said first target which
comprises a first chemical substance, waterbased medium, human or animal;
selecting said second target which
comprises a second chemical substance,
water-based medium, human or animal;

86a
providing a photon or magnetic pulse
generating source which emits a plurality of
photons or magnetic pulses as quantum
entanglement generating members when
said source operates;
disposing said first target between said
source and said second target or said second
target between said source and said first
target; and
driving said source to emit said photons
or magnetic pulses which interact with said
first plurality of quantum entities in said
first target and said second plurality of
quantum entities in said second target;
whereby said plurality of quantum
entanglements between said first plurality of
quantum entities in said first target and said
second plurality of quantum entities in said
second target is generated through said
interactions of said photons or magnetic
pulses as said quantum entanglement
generating members with said first plurality
of quantum entities in said first target and
said second plurality of quantum entities in
said second target; and said first non-local
effect of said second target on said first
target, comprising a first non-local effect of
said second target on a first physical,
chemical or biological property or process of
said first target, and/or said second non-local
effect of said first target on said second
target, comprising a second non-local effect of
said first target on a second physical,
chemical or biological property or process of

87a
said second target, are generated through
said plurality of quantum entanglements.

REJECTIONS
Claims 1, 3-7, 11, 14, 18, 19, 23, 24, 32-34, 36,
37, 44, and 46 stand rejected under 35 U.S.C. §112,
first paragraph, as failing to comply with the
enablement requirement. Final Act. 2.
Claims 1, 3-7, 11, 14, 18, 19, 23, 24, 32-34, 36,
37, 44, and 46 stand rejected under 35 U.S.C. §112,
second paragraph, as being indefinite. Final Act. 5-6.
Claims 1, 3-7, 11, 14, 18, 19, 23, 24, 32-34, 36,
37, 44, and 46 stand rejected under 35 U.S.C. § 101
because the claimed invention lacks patentable
utility. Final Act. 7.
Claims 14, 18, 19, 23, and 24 are provisionally
rejected on the ground of nonstatutory double
patenting as being unpatentable over claims 5-12 of
copending Application No. 13/492,830.2 Final Act. 11.

OPINION
Enablement under § 112, first paragraph, and utility
under §101

2 The double-patenting rejection is not contested and therefore
not further addressed herein. “Once the provisional rejection
has been made, there is nothing the examiner and the applicant
must do until the other application issues.” In re Mott, 539 F.
2d 1291, 1295-96 (CCPA 1976); see also MPEP § 804(1).

88a
For each of these rejections, Appellant argues
the claims as a group (App. Br. 9—26; 33—67), for
which claim 1 is representative under 37 C.F.R. §
41.37(c)(l)(iv). With regard to the questions of
enablement and utility, our reviewing court has
summarizedThe questions of whether a specification
provides an enabling disclosure under § 112,
H 1, and whether an application satisfies the
utility requirement of § 101 are closely
related.
To
satisfy
the
enablement
requirement of § 112, ^ 1, a patent
application must adequately disclose the
claimed invention so as to enable a person
skilled in the art to practice the invention at
the time the application was filed without
undue
experimentation.
The
utility
requirement of § 101 mandates that the
invention be operable to achieve useful
results. Thus, if the claims in an application
fail to meet the utility requirement because
the invention is inoperative, they also fail to
meet the enablement requirement because a
person skilled in the art cannot practice the
invention. The how to use prong of section
112 incorporates as a matter of law the
requirement of 35 U.S.C. § 101 that the
specification disclose as a matter of fact a
practical utility for the invention. Lack of
utility is a question of fact, and the absence
of enablement is a legal conclusion based on
underlying factual inquiries.

89a
In re Swartz, 232 F. 3d 862, 863 (Fed. Cir. 2000)
(quotations and internal citations omitted); see also
MPEP § 2164.07.
Paragraphs 9 and 11 of Appellant’s
Specification summarize the invention as follows:
[Para 9] For example, using the apparatus
and method developed in this invention I
have discovered that applying magnetic
pulses to a biological system such as the
human brain when a substance such as a
general anesthetic was placed in between
caused the brain to feel the effect of said
anesthetic for several hours after the
treatment as if the test subject had actually
inhaled the same.
[Para 11] Further, I have verified as detailed
below that said biological effect was the
consequence of quantum entanglement
between quantum entities inside the
biological system such as the human brain
and those of the substance under study
induced by the photons of the magnetic
pulses, laser light, microwave or flashlight.
The Examiner provided a detailed analysis,
citing various evidentiary sources, including, but not
limited to, those submitted by Appellant, in
considering the Wands factors (see In re Wands, 858
F.2d 731 (Fed. Cir. 1988); MPEP § 2164.01) as they
relate to enablement, and the question of whether
the claimed invention contravenes established
scientific principles, as that question relates to the
utility requirement. See Final Act. 2-5, 7-10. We

90a
agree with the Examiner’s analysis, which raised
reasonable doubts as to operability of Appellant’s
invention and the Specification’s compliance with the
enablement requirement. Appellant’s arguments rely
mainly on extrinsic sources that seem to bear little
relevance to the particular subject matter in question
here and patentability determinations made in other
jurisdictions. The focus of this inquiry is on
Appellant’s Specification. In that regard, Appellant
cites, inter alia, paragraphs 43 and 45 of the
Specification (App. Br. 18), which, along with Figure
1A, are reproduced below to summarize an
embodiment of Appellant’s invention^

110

112

FIG.\A
[Para 43] In one particular embodiment, the
container 130 is a small glassware of the
dimensions about r,x3,'x4" with a useful
internal volume of about 20ml, and the

